<html>
<title> - THE RESULTS OF THE PRESIDENT'S TASK FORCE ON RETURNING GLOBAL WAR ON TERROR HEROES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
               THE RESULTS OF THE PRESIDENT'S TASK FORCE 
                ON RETURNING GLOBAL WAR ON TERROR HEROES 

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 9, 2007

                               __________

                           Serial No. 110-22

                               __________

       Printed for the use of the Committee on Veterans' Affairs

                     U.S. GOVERNMENT PRINTING OFFICE

35-641 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




















































                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     RICHARD H. BAKER, Louisiana
Dakota                               HENRY E. BROWN, Jr., South 
HARRY E. MITCHELL, Arizona           Carolina
JOHN J. HALL, New York               JEFF MILLER, Florida
PHIL HARE, Illinois                  JOHN BOOZMAN, Arkansas
MICHAEL F. DOYLE, Pennsylvania       GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota

                   Malcom A. Shorter, Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.














































                            C O N T E N T S

                               __________

                              May 9, 2007

                                                                   Page
The Results of the President's Task Force on Returning Global War 
  on Terror Heroes...............................................     1

                           OPENING STATEMENTS

Chairman Bob Filner..............................................     1
    Prepared statement of Chairman Filner........................    33
Hon. Steve Buyer, Ranking Republican Member......................     2
    Prepared statement of Congressman Buyer......................    34
Hon. Ginny Brown-Waite, prepared statement of....................    35

                                WITNESS

U.S. Department of Veterans Affairs, Hon. R. James Nicholson, 
  Secretary......................................................     5
    Prepared statement of Secretary Nicholson....................    35

                       SUBMISSION FOR THE RECORD

Miller, Hon. Jeff, a Representative in Congress from the State of 
  Florida, statement.............................................    38

                   MATERIAL SUBMITTED FOR THE RECORD

Report of the Task Force on Returning Global War on Terror 
  Heroes, April 19, 2007.........................................    40


                     THE RESULTS OF THE PRESIDENT'S
                        TASK FORCE ON RETURNING
                      GLOBAL WAR ON TERROR HEROES

                              ----------                              


                         WEDNESDAY, MAY 9, 2007

                     U.S. House of Representatives,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at 2:03 p.m., in 
Room 334, Cannon House Office Building, Hon. Bob Filner 
[Chairman of the Committee] presiding.

    Present: Representatives Filner, Michaud, Herseth Sandlin, 
Mitchell, Hall, Hare, Berkley, Salazar, Donnelly, McNerney, 
Space, Walz, Buyer, Stearns, Baker, Brown of South Carolina, 
Boozman, Brown-Waite, Lamborn, Bilirakis, Buchanan.

              OPENING STATEMENT OF CHAIRMAN FILNER

    The Chairman. The House Committee on Veterans' Affairs is 
called to order. We thank the members for their attendance.
    Mr. Secretary, we thank you for being here. We thank you 
for chairing the President's Task Force on the Returning Global 
War on Terror Heroes and for the Task Force's report to the 
President.
    Mr. Secretary, we will hear from you on the Task Force 
recommendations. I think that you know, and I know you feel it 
personally, the frustration amongst us all as to making sure 
that we clearly and professionally deal with the returning 
veterans from Iraq and Afghanistan and that while we are doing 
that keep services up for our older veterans. That is a 
challenge that you have, and that we all have, in working 
together to do that. We want it done today or yesterday or last 
week and I know you do too. So we are looking forward to your 
report and the implementation of the recommendations. I was 
disappointed at the charge that you got in that you had to stay 
within certain constraints, no new programs, no new money.
    I hope that you might give our Committee a report that does 
not have those constraints, that details what we have to do to 
make sure that we meet the needs, and we meet them urgently.
    Every one of us has had the experience, and I know you have 
because we have done it together, of talking to veterans around 
the country and looking into the faces of the spouses of 
troops, returning troops who have brain injury and knowing that 
they are going to have to spend 24 hours a day with them and 
lose their jobs. What is their future going to be? We meet 
people, young people with Post Traumatic Stress Disorder (PTSD) 
trying to cope with this and trying to deal with a bureaucracy 
that sometimes seems unresponsive to them.
    So we have a job to do as a Committee and as a Congress and 
your agency is right at the frontiers of that. Everybody is 
looking to the VA to do its job correctly. So we hope that 
these recommendations do not sit around like so many other 
recommendations have done.
    There are other reports on the table. I know that there was 
a President's Task Force to Improve Health Care Delivery for 
Our Nation's Veterans in 2003. There was a report from the 
Congressional Commission on Servicemembers and Veterans 
Transition Assistance in 1999. And of all those 
recommendations, not all of them have ever been implemented.
    We want a timeframe for the implementation of your 
recommendations, who is going to be responsible for 
implementation; how will we be informed on the progress because 
we, as we have talked about, want to have accountability for 
all of this. So we are interested in time lines and 
implementation and we want to know what else we can do if we 
provide more resources.
    I think you know that in the first three budget bills that 
went through the House, only one of them signed by the 
President so far, that we were able to add close to $13 billion 
to the budget from last year, the highest increase in history. 
This is almost a 30-percent increase in healthcare revenues.
    So we think we are giving you the resources that you need, 
but we want to make sure that they are spent the right way and 
that our returning heroes do, in fact, get the kind of care and 
love and attention that we all want.
    I will say one more thing before I turn to Mr. Buyer for an 
opening statement, that we are discussing the war and the 
funding of that now. I just want to assure you, and the 
American people, that wherever we are on the war, wherever we 
stand, we are united in saying that every young person that 
comes back from that war gets all the care and attention, love, 
honor, and dignity that this Nation can bestow.
    I think many of us may have made mistakes in greeting 
heroes from Vietnam. We, as a country, are not going to make 
those mistakes again, and we look forward to working with you 
to make sure that that occurs.
    Mr. Buyer, you are recognized for an opening statement.
    [The prepared statement of Chairman Filner appears on p. 
33.]

             OPENING STATEMENT OF HON. STEVE BUYER

    Mr. Buyer. Thank you very much, Mr. Chairman. I want to 
thank you for being responsive to my request to have the 
Secretary come up here today. This is a very good hearing. I 
appreciate your cooperating to make this happen.
    Mr. Secretary, thank you for being here today and for 
chairing this Task Force on behalf of the President and the 
country.
    The President has made clear his intent to establish a 
truly seamless transition for servicemembers between the 
military and the VA, as well as other agencies providing 
services to our veterans. You and your colleagues on the Task 
Force have produced a thorough review of factors affecting 
seamless transition and you are to be commended.
    I must inform you, though, Mr. Secretary, over the past 15 
years, I have seen, whether it is from the reports from the 
U.S. Government Accountability Office (GAO), the Inspector 
General (IG), commissions, task force reports, and reports on 
this issue, from my personal experience with seamless 
transition on this Committee, I know that at this point, there 
are few new discoveries.
    What we have regrettably seen and what I believe has 
compelled the President to directly intervene is a general lack 
of implementation. So to be fair, I believe the U.S. Department 
of Veterans Affairs (VA) has made most of the progress. It has, 
in fact, led the Federal effort, but the VA cannot do it alone. 
You need to have the cooperation and leadership from your 
counterparts at the Departments of Defense (DoD), Health and 
Human Services (HHS), Homeland Security (DHS), Labor (DoL), 
Education (DoE), and other agencies.
    So, Mr. Secretary, with the Task Force work behind us and 
this report now before us and the President's intent made clear 
to you as the leader of this Task Force, we must now have 
implementation.
    Now, when I ask about implementation, you and I both 
recognize that there are some other things that are still out 
there. We still have the Dole-Shalala report that will be due 
later on in the summer and we have the Claims Commission. So 
while we have some overlap, we want to avoid duplication and 
redundancies, but there are things that we can do now.
    So in a few short weeks, the President I believe is due to 
receive a progress report on the implementation of 
recommendations from the report. We in turn will look to you 
and other agency heads, in particular Defense Secretary Gates, 
to work directly with you and your respective departments as 
you move forward.
    So in your statement, I am hopeful that you will touch on 
these relationships and how you foresee them as you proceed.
    So what happens is we want to talk about real progress. 
This report is nonetheless, I believe, encouraging. And among 
the Task Force's 25 recommendations, a handful alone would 
dramatically improve transition and must become a high priority 
within the Administration.
    These include the development of a system of co-management 
and case management for returning servicemembers to facilitate 
transition between the Department of Defense and the VA.
    Second, the screening of all Global War on Terror veterans 
seen in VA healthcare facilities for mild to moderate traumatic 
brain injury (TBI). Now, it is often said about TBI being the 
signature injury of this war, yet the actual numbers that are 
actually being treated for TBI are relatively small. You will 
have to tell me what the exact number is.
    But there are individuals who are survivors of these 
improvised explosive device (IED) explosions that are excited 
that they survived, but they, in fact, may have some effects 
that they are not aware of. And that screening, I think, would 
be pretty important. And I know it is an issue that the 
Chairman is also pretty concerned about.
    Expanding VA access to DoD records to coordinate improved 
transfer of servicemembers' medical care through the patient 
handoff is a need that you and I witnessed as we went through 
the theater into Germany and saw those medical records taped to 
their chests. I know that is something vivid in your mind.
    Another goal is the development of the joint DoD/VA process 
for disability benefit determinations by establishing our 
cooperative Medical and Physical Evaluation Board process 
within the military service branches and the VA care system. 
Also among my goals here on the Committee is to ensure that the 
veterans have every opportunity to live full and healthy lives, 
that they can take advantage of the economic opportunities 
their service helped preserve.
    Among key recommendations, the Task Force report would help 
veterans transition to civilian life. As you mentioned, this 
would include increasing attendance at Transition Assistance 
and Disabled Transition Assistance Programs for active duty 
Guard and Reserve, requiring the Department of Education in 
cooperation with the Department of Labor to participate in DoD 
job fairs to provide returning servicemembers and their 
families with awareness of postsecondary education benefits, 
requiring the Department of Labor through the Veterans' 
Employment and Training Service to participate in the Workforce 
Investment System in every State and territory, and partnering 
with private-public sector job fairs to expand the number of 
employers involved in active veteran recruitment.
    The accomplishment of these recommendations as well as 
others is critically important. Since 2003, this Committee held 
more than ten hearings and conducted fifteen site visits 
focusing on seamless transition. Our experiences collaborate 
the value offered by these recommendations. And that is why I 
compliment you.
    Mr. Chairman, there are two other things I would like to 
address, and that is, one, there were statements, Mr. 
Secretary, made by members of this Committee that have ended up 
in the press as of late, some of which concerned me and I would 
thus probably label them as freshman over-exuberance. And so 
let me address each of them.
    The Chairman. Mr. Buyer, we are here to hear the Secretary. 
I would prefer if we have time at the end that you go over 
those.
    Mr. Buyer. That would be fine.
    The Chairman. But as a prosecuting attorney once said, once 
you open that door, anybody else can walk through it. So I 
would like to get to the Secretary.
    Mr. Buyer. I will restrain myself and close with this: Mr. 
Secretary, we are pleased to have you here. We look forward to 
your report.
    The Chairman. Wait a minute. Please, Mr. Secretary, you are 
on.
    Mr. Buyer. So you have cut off my statement?
    The Chairman. You told me you finished your statement.
    Mr. Buyer. No. I said I will not refer to what I was about 
to discuss and just let me complete the statement. It is just a 
minute, Mr. Chairman.
    The Chairman. You have one more minute.
    Mr. Buyer. Thank you.
    Mr. Secretary, I want to compliment your initiatives out 
there, not only coupled with this report, but you have doctors 
in Pittsburgh right now in your efforts to reduce the staph 
infection rates and you are about to leverage that across the 
VA system. I extend great compliments to you.
    Your diabetes initiative, you know, is doing over 8,000 
amputations a year. A lot of people do not realize why you are 
so good in that business.
    And you just announced a new formal Advisory Committee 
yesterday. So at some point, if you could let us know about 
what that is about.
    And thank you, Mr. Chairman, for your courtesy.
    [The prepared statement of Congressman Buyer appears on p. 
34.]
    The Chairman. Thank you, Mr. Buyer.
    Mr. Secretary, welcome, and we look forward to your report.

  STATEMENT OF HONORABLE R. JAMES NICHOLSON, SECRETARY, U.S. 
   DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY HONORABLE 
PATRICK W. DUNNE, RADM, (RET.), ASSISTANT SECRETARY FOR POLICY, 
 PLANNING AND PREPAREDNESS, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Secretary Nicholson. Thank you, Mr. Chairman and members of 
the Committee. I welcome the opportunity to come here to give a 
report on the work of the President's Task Force on the Global 
War on Terror Heroes.
    The recent series of articles in the news media highlighted 
significant problems at the Army's Walter Reed Medical Center. 
Many people have misconstrued this to relate to the VA 
healthcare system which is an entirely different entity.
    Servicemembers maintained on active duty for care were 
being housed in a former motel at Walter Reed that had not been 
properly maintained for some time. Conditions in what everyone 
now knows as Building 18 were deplorable. That our 
servicemembers would be expected to live in those conditions 
elicited outrage. This situation was unfortunate on many 
levels.
    My wife, Suzanne, and I have visited Walter Reed Hospital 
many, many times in the two plus years that I have been the 
Secretary. We continue to be impressed by the character of our 
young, injured servicemembers. We are as well impressed with 
the quality and the compassion of the medical care that they 
receive there, but that is a focus on the critically injured 
inpatients, not on those who are in the Army's medical hold 
status.
    Upon learning of the Army's situation in Building 18, I 
immediately did two things. First, I directed that a survey be 
conducted at all points of access to the VA healthcare system, 
our 155 hospitals and nearly 900 outpatient clinics, to ensure 
that we did not have situations comparable to those encountered 
in Building 18.
    Although the findings in large part were positive, those 
areas of concern identified were addressed immediately under my 
orders that the VA non-recurrent maintenance funds be used to 
rectify them.
    I also wrote to every member of the United States Congress 
and reiterated my own commitment to assure that our veterans 
receive the very best care possible in an environment of care 
that is appropriate to that care.
    So I also asked them, you, to visit a VA medical center in 
your State or district at your earliest convenience. And to 
date, I am pleased to say that 305 members have done so and 
almost universally they have expressed their high regard for 
the quality of care being provided, the commitment of the 
caregivers, and the cleanliness of the environment in which 
that care is given.
    The President also took decisive, aggressive action. By 
Executive Order, he established two groups, the President's 
Commission on Care for America's Returning Wounded Warriors and 
the Task Force on Returning Global War on Terror Heroes, which 
he asked me to Chair.
    The President's Bipartisan Commission is chaired by former 
Senator Bob Dole and former Secretary of Health and Human 
Services, Donna Shalala. That Commission is to report to him by 
the end of July.
    Our Task Force was to develop recommendations and report 
back to him in 45 days with an assessment of gaps that may 
exist in services needed by our servicemembers that could be 
addressed without additional legislative authority or 
appropriations. Those were the two constraints.
    The Task Force which I chaired included the Secretary of 
Defense, Robert Gates; Secretary of Labor, Elaine Chao; 
Secretary of Health and Human Services, Michael Leavitt; 
Secretary of Housing and Urban Development, Alphonso Jackson; 
Secretary of Education, Margaret Spellings; the Director of the 
Office of Management and Budget, Rob Portman; the head of the 
Small Business Administration, Steven Preston; and the Director 
of the Office of Personnel Management, Linda Springer.
    And I am proud of the work of this Task Force. There is a 
new era of cooperation and what we can do here can make a 
substantial difference. The recommendations of the Task Force 
focus on ways that we can immediately improve the services for 
those returning servicemembers from the war and how we can 
better reach out to them and their families to make them aware 
of what services exist.
    We developed 25 recommendations and I want to note here 
what I consider some of the most significant.
    In the context of healthcare, DoD and VA have agreed to a 
new system of co-management and case management for these 
combatants who are seriously injured as they move from one 
system to another. We have the most advanced polytrauma centers 
in the world bar none. Our patients' transition from the 
military medicine arena to ours will be seamless for them and 
their families.
    We are going to work with DoD to develop a joint process 
for disability determinations which will provide consistency 
and speed for our veterans.
    We are now going to screen every Global War on Terror 
veteran who comes to us for any form of brain injury looking 
for the mild or moderate form of brain injury as a result of 
the environment they are in over there and the concussive 
blasts that are so prevalent. We want to identify it as early 
as possible and begin treatment.
    We are going to simplify the enrollment process for 
veterans to enroll for healthcare whether they enroll online or 
in person. And we will continue to develop our world standard 
of electronic medical records.
    The DoD is taking action to increase the attendance at the 
Transition Assistance Programs known to you probably as the TAP 
briefings. The more our veterans understand about their 
benefits, the more successful their transition to civilian life 
will become.
    A few other areas I want to briefly highlight for you today 
include the VA and HHS collaborating to improve access to care 
for returning servicemembers in remote or rural areas.
    The SBA is expanding eligibility of the Patriot Express 
Loan Program to provide a full range of lending, business 
counseling, and procurement programs to veterans, service-
disabled veterans, Reservists, and families if the desire for a 
returning servicemember or family is to obtain self-employment.
    The DoD and the Department of Labor are improving civilian 
workforce credentialing and certification allowing for greater 
exposure of a servicemember's military experience to civilian 
job opportunities.
    The Department of Housing and Urban Development is 
expanding access to the national housing locator for 
servicemembers. By expanding its use, returning servicemembers 
will have a resource that provides safe, disability accessible, 
if needed, and affordable housing to ease in potential 
relocation to a new geographic area.
    The Department of Education in cooperation with the 
Department of Labor will participate in DoD job fairs to 
provide returning servicemembers and their families with more 
awareness of the postsecondary education benefits available to 
them.
    The Department of Education will provide education benefits 
training to the 211 Transition Assistance Programs and those 
sites would service more than 150,000 transitioning 
servicemembers every year.
    The Office of Personnel Management is expanding their 
military treatment facility outreach to promote the 
availability of Federal employment and veterans' preference 
rights.
    So all in all, our focus, I think, really is very simple. 
It is to make the existing services that are there of the 
Federal Government the very best they can be for our veterans 
and for their families and for the survivors of those who paid 
the ultimate price.
    Thank you very much, Mr. Chairman.
    [The statement of Secretary Nicholson appears on p. 35 and 
the Task Force on Returning Global War on Terror Heroes report 
appears on page 40.]
    The Chairman. Thank you, Mr. Secretary.
    I will be calling on colleagues in just a second after one 
short question I have.
    Let me just give you an example of the frustration many of 
us feel when we see reports like this. You said we will screen 
every veteran that comes to us for TBI. Now, that is the 
recommendation of the Task Force. What I would like to hear you 
say is only X percent, it is fairly small, of returning 
veterans come to us. We should be screening them 
comprehensively and mandatorily for both TBI and PTSD before 
they are discharged or before they enter the civilian life.
    We all have heard from experts that the sooner we catch 
this, as you mentioned, the better off the veteran is. Some 
symptoms are hidden until months later, so maybe we need a six-
month screening and then a twelve-month screening and a twenty-
four-month screening. That is our obligation. Part of the cost 
of war is dealing with the cost of caring for our veterans.
    And so we applaud that screening, but it is just a small 
part of what we really should be doing. And we need you to 
show--I know you know this--but tell us so we have a context in 
which we view these recommendations, as I said, on the one hand 
under the constraint of no new money, but on the other hand, 
what do you really want to meet the needs of our returning 
heroes. That is the kind of thing that I hope we can work 
together to solve.
    Mr. Michaud, who is Chairman of our Health Subcommittee, 
will start off the questioning.
    Mr. Michaud. Thank you very much, Mr. Chairman.
    And thank you, Mr. Secretary, for coming here today and for 
presenting this report to us.
    Looking at the report and having had a chance to read it 
when it first came out, I appreciate the fact that you are 
assigning a lead agency to look over some of these 
recommendations along with a target date for implementation so 
we can see where you are throughout the process.
    My concern, however, is, even though the Task Force did a 
great job, back at my office I have the Presidential Task Force 
for a Seamless Transition recommendations that came out in 2003 
that currently is sitting there and it is the implementation 
which is extremely important. I compared those Task Force 
recommendations for a seamless transition to these Task Force 
recommendations to see how many are the same. These reports are 
not going to do any good unless we act upon them.
    I can tell you that I will definitely be keeping a close 
eye on the target dates when these recommendations are supposed 
to be implemented and, if they are not, see why the 
implementation has not moved forward.
    You heard the Chairman talk about how you were directed to 
do this with existing resources and existing authority. Do you 
feel you can do all these recommendations without any 
additional resources for your agency?
    Secretary Nicholson. Yes, I do, because we abided that 
constraint of the action items that we are taking pretty 
carefully. That was our mandate.
    Mr. Michaud. Okay. Are there any recommendations when you 
went through looking at the seamless transition and what was 
needed out there, are there any recommendations that actually 
might have cost funding that you could not do that are out 
there that we should look at?
    Secretary Nicholson. There is a possibility, Congressman 
Michaud, as some of these things would, you know, as they 
mature.
    For example, I think the very enlightened idea of 
simplifying and streamlining this discharge procedure. The way 
it works now is that if a servicemember is injured, the Army 
makes a determination or the Marine Corps or the services that 
they are either fit or unfit to be retained on active duty. And 
if they are fit, in theory they go back to their unit. If they 
are unfit, they go into a category for determination of that 
degree of unfitness prior to their separation.
    And what we know is that if they are not happy with that, 
they have appeal rights within the Armed Services, but further 
they then can come to the VA and make a claim at the VA. And 
many, many of them do. And that entails months, if not years of 
time that they are sort of in limbo. In fact, that was the case 
at Walter Reed. I think some 600 people were in that medical 
hold category.
    What we are talking about is slicing through some of that. 
If they are fit, put their boots back on and go back to duty. 
If they are unfit, come in an expedited way to the VA and we 
then evaluate and process that degree of disability and work it 
into our compensation system. That could entail additional 
resources upon its full maturation.
    Mr. Michaud. It would be helpful if you can provide any 
other recommendations that came out of the Task Force or 
thoughts, but because it did not meet that criteria of within 
existing resources, it would be helpful if you could provide 
that to the Committee because I think we are very interested to 
make sure we do take care of our men and women who wear the 
uniform and those who become veterans.
    My last question is, what will happen, and I think the VA 
has done an excellent job when you look at medical records and 
what have you, and I think the Department of Defense has been 
slack in that area, what happens if there is a disagreement 
between DoD and the VA? How do you resolve those differences? 
How do you deal with that issue?
    Secretary Nicholson. Well, first, let me tell you a very 
encouraging note that the first meeting was held yesterday in 
Deputy Secretary England's office over in the Pentagon with my 
Deputy and all three of the service Secretaries and the Deputy 
Chiefs of those services to discuss these very issues.
    And, further, there is an agreement for such a meeting to 
take place now every Tuesday afternoon. That is significant 
movement because there is, I think, a new awareness and there 
is a new command emphasis that comes from the President, and 
people are getting it, that we are just going to have to do a 
better job in getting these two big organizations to talk to 
each other, particularly with respect to medical records.
    Mr. Michaud. Thank you very much, Mr. Secretary.
    The Chairman. Thank you very much.
    I will yield to Mr. Buyer and also Mr. Stearns for his 
time.
    Mr. Buyer. Mr. Chairman, I will exercise the same courtesy 
that you did.
    But in my opening statement to the Secretary, I had asked 
him in his opening statement to comment on this reduction of 
the infectious disease of our hospitals because we are talking 
about, you know, our soldiers coming home and transitioning to 
what. And, Mr. Secretary, you are getting out in front of the 
reduction of the infectious disease rate and it is a good 
story.
    Can you tell us about what happened at Pittsburgh, the 
reductions, and how you are trying to leverage that?
    Secretary Nicholson. Yes, I can. I can tell you, and maybe 
some of you have seen, there is a graphic out there that 
graphically portrays some of the things you do in life that are 
on a scale of very dangerous to very safe. And on the very 
dangerous thing that you can do in the United States today is--
--
    The Chairman. Being a Cabinet Secretary?
    Secretary Nicholson. Pardon?
    The Chairman. Cabinet Secretary is right up there, right?
    Secretary Nicholson [continuing]. Is to go into a hospital. 
One of the very safe things you can do today is fly on a 
commercial airliner. And there are some things in between.
    So it is a fact that far more people are being killed today 
in today's hospitals by mistakes than are dying on the 
highways. One of the problems are staph infections. There is a 
technical name for it which is called methicillin staph 
resistant aureus and the acronym is MRSA. And we at the VA, I 
think we have established an exemplary record for patient 
safety and performance measures and so forth, but we have had 
that problem as well. So we instituted a pilot project at our 
VA hospital in Pittsburgh to go after the MRSA.
    And in one year, we reduced staph infections by 70 percent. 
And it is not space science how we did it. It is a disciplined 
approach, sanitation, culturing patients when they come in. It 
is usually a swab in the nasal passage. It used to take two 
days to read the culture. We now have a new technology. We can 
read them in two hours.
    If they are a MRSA carrier, they are treated accordingly. 
The staff will scrub afterwards, regarb if they have close 
contact with that patient. We cut those infections 70 percent.
    So we had a discussion about taking this pilot to ten or 
fifteen hospitals. I said, no, let us take this to 155 
hospitals. And I say I am very proud like I am in many ways of 
the leadership and the medical corps of the VA. They have 
embraced this and it is underway in our system. And I think we 
are going to see some just tremendous results from it.
    The Chairman. Mr. Stearns, you have five minutes.
    Mr. Stearns. Thank you, Mr. Chairman, and thank you for 
having this hearing.
    I want to thank the Secretary for the job he is doing and 
the sacrifice he is making at this critical time. We appreciate 
your efforts.
    Yesterday we had an Oversight Subcommittee hearing in which 
we had a lot of the DoD and Veterans Affairs up here. And it 
was clear to us that the whole idea of inter-operability 
between DoD and Veterans Affairs is a long way off.
    And as you know, we have been working on this. There has 
been legislation. There has been studies and this has been 
going on for some time unsuccessfully. And we found yesterday 
that it could be as late as 2012 when they possibly will have 
inter-operability.
    And this goes to your policy directive, your Veterans 
Health Administration (VHA) directive of April 13th in which 
you said it will be the policy of the VHA that all Operation 
Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF) 
veterans receiving medical care within VHA must be screened for 
possible TBI. Those who on the basis of the screening might 
have TBI must be offered further evaluation and treatment by 
clinicians with expertise in the area of TBI.
    I guess my question is to you, is it not crucial and 
important that the Department of Defense provide you the 
medical information that they have so that the seamless 
transition when they move from active duty to veteran, that all 
that information, particularly dealing with traumatic brain 
injury, is available to the veterans?
    And I was just disappointed last night that it is still not 
being done and I just would like your opinion.
    Secretary Nicholson. Yes, it is. It is extremely important. 
It is critically important that we get what is available on the 
medical history of that servicemember since being injured.
    And as Congressman Buyer mentioned earlier, he and I had 
been in Iraq with other members. Two people were injured where 
we were one day near Fallujah and we happened to be going into 
the hospital in Landsthul the same time as they were coming in 
on gurneys and their medical records were taped to them with 
duct tape to their bodies----
    Mr. Stearns. Yeah.
    Secretary Nicholson [continuing]. Bespeaking, I think, the 
anomaly that there exists between how highly technical our 
Armed Services are with the state-of-the-art target 
acquisition, night vision optical equipment and, yet, still 
very rudimentary with paper records which are fraught with 
being illegible, things getting lost. It is not a lack of bad 
faith on their part.
    Mr. Stearns. No. I think it is just getting all these 
departments together.
    Secretary Nicholson. It is problematic.
    Mr. Stearns. You know, in my congressional district, I have 
a company called Banyan Biomarker and they are trying to 
determine through diagnostic blood samplings whether traumatic 
brain injury is--what category of seriousness it is.
    Now, when you say you are going to do this screening, I 
assume in addition to questions and answers, you are also going 
to do MRIs and things like that. I am asking you for the 
technical aspect.
    But these scientists have pointed out that you really 
cannot fully detect traumatic brain injury or, for that matter, 
posttraumatic stress disorders. You have to do it 
diagnostically through blood. And we are not at that point, so 
there is going to be a lot of debate of a person who comes 
through and you say, no, you do not have TBI and, yet, the 
person says there is something wrong.
    And so I think you and your staff should be aware of that, 
that there is another state-of-the-art for this testing that 
through blood diagnostic you can find this.
    But I think the thing that I think is extremely important, 
and you have sort of confirmed it, is this inter-operability. 
In this age of information, we should be able to have that 
those records are not affixed, attached to a person, but should 
be electronically transmitted automatically. And I think that 
part of your whole Task Force is to continue to push on that 
effort.
    And I thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mrs. Herseth Sandlin----
    Ms. Herseth Sandlin. Takes some getting used to.
    The Chairman [continuing]. The Chairperson of our Economic 
Opportunity Subcommittee.
    Ms. Herseth Sandlin. Thank you, Mr. Chairman.
    The Chairman. Congratulations on your recent marriage.
    Ms. Herseth Sandlin. Thank you. Thank you and the Ranking 
Member for having this hearing today.
    Mr. Secretary, thank you for your testimony. I would like 
to start out with the recommendation that you cited and that is 
in the materials from the Task Force work product to expedite 
adaptive housing and special home adaptation grants claims.
    I could not agree with that recommendation more and I am 
wondering if the Task Force looks specifically at the change in 
the law that we made in 2003 where active duty servicemembers 
could apply for these specially adapted homes because I have a 
constituent that has run into a lot of hurdles and was 
initially told that you cannot apply for the specially adapted 
housing grants until you have a DD-214 and a VA disability 
rating, but he is still on active duty. And we have more and 
more active duty status servicemembers who have suffered 
serious brain injuries.
    If you could elaborate as to whether or not the Task Force 
did look into that specifically in terms of implementing that 
legal change and what recommendations you might have.
    Secretary Nicholson. I am aware of that issue, 
Congresswoman. The answer, though, our Task Force did not look 
at that because, again, that would require legislation. And 
within the ground rules that we were operating and this 
expedited timeframe we had, we did not look at those things.
    Ms. Herseth Sandlin. Okay. Well, I just want to bring it to 
your attention so that you know that the Subcommittee may very 
well be interested in looking at what is needed to make sure 
that the implementation of the change that was made in 2003 for 
active duty and what VA needs to more quickly process these 
claims with the authority, I think, was given in 2003.
    But I think this is again an area where DoD, when a soldier 
is still active duty and under the way that the claims 
processing has always worked, you need to be discharged and 
have a VA disability rating. And we have got some folks out 
there that are either in polytrauma centers or they are in 
private rehabilitation facilities that are trying to apply and 
getting misinformation.
    The other area I wanted to explore was the specific 
recommendations in the health area for traumatic brain injured 
servicemembers. I know that you mentioned at the outset that 
one of the most significant recommendations in your opinion is 
developing that system of co-management and case management 
more broadly, but then specifically the polytrauma identifier 
as well as the traumatic brain injury database to track 
patients.
    And I am wondering, well, I would just make the comment 
that as you move forward in implementing these, a 
recommendation, suggestion again by the mother of one of my 
constituents in talking with the mother of another brain 
injured soldier is that the case management, managers could be 
trained specifically for TBI patients because untrained people 
may not be fully aware of what seriously injured, brain injured 
servicemembers may require. If we had this subset of trained 
case managers, it might help these families substantially.
    One last question. Did the Task Force specifically evaluate 
the suitability of existing programs and the restrictions on 
those programs in the Vocational Rehabilitation Employment 
Service for brain injured soldiers?
    Secretary Nicholson. I am sorry. Of the what programs?
    Ms. Herseth Sandlin. The existing programs under vocational 
rehabilitation and the restrictions on the participation of 
those programs and their suitability for brain injured 
servicemembers.
    Secretary Nicholson. Yes, we did. Looked at that quite 
carefully and have stepped up the efforts for awareness of 
those programs.
    Ms. Herseth Sandlin. I understand. I appreciate that and I 
appreciate the recommendation of extending the period of time 
because over two years or more we see cognitive functions 
continuing to come back and develop for these servicemembers.
    And so, again, the Subcommittee will work more closely with 
you and those that work with you to more closely evaluate the 
suitability and the need to maybe modify these programs to work 
best for these servicemembers and their families. Thank you, 
Mr. Secretary.
    And thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Baker, you have five minutes.
    Mr. Baker. Thank you, Mr. Chairman. I appreciate your 
courtesy.
    Mr. Secretary, I commend you and the Task Force for 
identifying promptly the problems at Walter Reed and taking 
prompt corrective action. It is highly commendable.
    My observation today is we have a similar problem in 
Louisiana as a result of Katrina. Due to the destruction of the 
VA hospital there, veterans now may travel as much as eight 
hours to receive appropriate healthcare.
    It was February 23rd, 2006, that is for the Committee 15 
months ago, when the VA and the State entered into an MOU to 
explore the feasibility of VA-State partnership for delivery of 
innovative care in the New Orleans area.
    Only recently, as in the last couple of weeks, has the 
State forwarded its proposal which I thought was rather 
unexpected in that its $1.2 billion scope and bed count was 
above earlier anticipated numbers.
    In the interim, since that report has initially been 
issued, there have been two statements for the record, one by 
Governor Blanco, one by the Chairman of the LRA, the Recovery 
Authority, indicating several points of consideration, the need 
of economic recovery, the need of an economic engine, financial 
necessity. It went on and on in the letter. I found it of 
interest in the three pages of correspondence the word veteran 
was not mentioned once.
    On April 10th, the Chairman and myself, the Ranking Member, 
Mr. Jefferson of New Orleans forwarded correspondence to your 
office requesting establishment of a date certain. We are not 
trying to tell anybody how to do it. We are only requesting 
that it get done. I am awaiting that determination. The problem 
is clear in Louisiana just like it was at Walter Reed. You see 
it, you decide what to do, and you went and fixed it.
    My reason for being here today is after 15 months is to say 
it is time for us to do something. We do not have to describe a 
plan. We do not have to tell the State what to do. We merely 
should say by a date certain. Whatever that date is, you are 
certainly free to make that determination. As I understand the 
MOU, either party can unilaterally withdraw for any cause 
whatsoever.
    But the plan now under consideration will require the 
acquisition of considerable private property interest. In one 
plan as few as 200 parcels. In another plan as much as 37 
acres, some of which is in downtown Orleans which has generated 
considerable discussion among those homeowners.
    The original plan contemplated to have begun planning and 
feasibility studies for the structure itself would have been 
engaged already, would not have allowed a ribbon cutting and 
service of veterans until 2012.
    With the added curve of the acquisition of new private 
property in order to facilitate a 60-acre site above the 
initial 37 proposed by the State, it would seem logical to me 
that control of the site for development may take not months 
but years.
    If I were to tell veterans they were to wait until 2012, 
which was plan A, they were not happy. To be honest, I cannot 
represent that to them anymore because I cannot tell them when 
it will be.
    My question, Mr. Secretary, is not how long I am going to 
have to wait. I am not important. But it is extremely important 
for me to be able to tell the veterans how long are they going 
to wait. When are we going to set a date, Mr. Secretary?
    Secretary Nicholson. Well, you do not have any more 
frustration there than I, Congressman. We did enter into the 
memorandum of agreement, making a lot of good sense to 
collaborate and share facilities such as parking, laundry 
facilities, certain other infrastructure, utilities, and did it 
in good faith with high expectations.
    And while we do not have all of the money that we need to 
build the hospital, you need to give us about another $300 
million of authorization, we do have $300 million appropriated 
and authorized, plenty to start all the design work, 
engineering, site planning. But we have not been able to count 
on a site.
    So as you know, about two months ago, I said we cannot wait 
any longer for LSU. And I put out an RFP for alternative sites 
which we are now looking at with a view toward possibly having 
to build this hospital independent of a collocation with LSU. 
And we are going to be vetting out those sites soon.
    But as I sit here today, I could not give you a date 
certain. I just could not be honest about it if I did because 
we do not yet have enough----
    Mr. Baker. Will we likely wait another year, another two 
years? I mean, is there an outside limit? There has got to be. 
I mean, at this point, we have no plan. The State does not have 
the money. There are alternative private interests who are 
willing to make their facilities available within the region.
    I am just asking for a business decision and I am not going 
to ask for it today, but I think it highly inappropriate to 
have such uncertainty over something that is so important to 
the region. There is not any reason in the world to have 
someone have to drive to Houston or Biloxi.
    These are Louisiana veterans coming home and they have 
every right to expect care in their community because it used 
to be there. And all I am suggesting is a decision. I will be 
happy with a bad one, just we need a decision.
    I yield back.
    The Chairman. Thank you.
    Mr. Buyer and I have joined you and Mr. Jefferson in trying 
to do this and we share the frustration of Mr. Baker.
    The Chairman of our Investigations and Oversight Committee, 
Mr. Mitchell.
    Mr. Mitchell. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for being here today to 
report on the findings of the Task Force.
    You know, the Global War on Terror has been the reality for 
our Nation since 2001 and I am glad the President created this 
Task Force. But I have to admit I am disappointed that it took 
until 2007 to do it. It seems to me that the Department of 
Veterans Affairs should have been prepared many years ago.
    Mr. Secretary, I visited the Carl T. Hayden Medical Center. 
That is the VA medical center in Phoenix. I have tremendous 
respect for the staff, but what they told me is that they are 
strained, that they are under-staffed and in some cases do not 
have the equipment they need.
    Aside from the Administration's delay in addressing this 
issue, I am concerned that the VA may not have the resources it 
needs to get the job done.
    Veterans tell me and VA officials tell me that the VA is 
under-staffed and lacking the equipment it needs. Do you 
believe that the VA is under-resourced and do you regret your 
decision not to ask for funds to allow the VA to handle the 
strain of the new veterans' population?
    Secretary Nicholson. I think, Congressman Mitchell, the VA 
is adequately staffed to take care of this mission that we 
have. It is a dynamic and the VA is a very large organization 
with facilities from Maine to Manila. And overall, it is 
adequately staffed.
    The President, since he has been in office, has requested 
increases in spending for the VA that now are nearly 80 percent 
from when he came into office.
    And I think that while there may be exceptions because it 
is dynamic and patient demand is not static and sometimes it 
will cue up in certain places and we have an obligation to 
adjust to that, the VA healthcare system is, I think, doing an 
extraordinary job. And that is not just me, a proud Secretary, 
proud of the people out there doing it, but that is what others 
say about us.
    I was just sent a copy of a book here. It is written by a 
guy named Phillip Longman, whom I have never met, but I noted 
his credentials, and it said VA is the best healthcare 
anywhere. And it says why VA healthcare is better than yours.
    Mr. Mitchell. Mr. Secretary, I understand that. And it 
sounds like what you are saying is you have all the resources 
and all the staffing you need. And I am not too surprised that 
you are saying that because it almost sounds like you have 
plenty of money.
    And as a result, I think, last week, the Associated Press 
reported that your top officials were paid the most lucrative 
bonuses in Government.
    Now, it kind of begs the question, but I think it is 
appropriate. I am going to ask you, do you think it is 
appropriate with all these political appointees receiving 
bonuses of $30,000 plus, and these are not salaries, these are 
bonuses, while veterans are waiting an average of 90 days for 
PTSD followup appointments, the backlog for claims range from 
400,000 to more than 600,000 with delays averaging 177 days, 
and while the Phoenix VA facilities do not even have an MRI 
device? It seems to me that they are under-equipped and they 
are under-staffed.
    Secretary Nicholson. I will respond to that, Congressman. I 
want to adjust your paraphrasal of my statement when I said I 
think the VA is adequately staffed and then you said, or it 
sounds like, you think the VA has all the money it needs.
    I would say given the size of the VA and the expanse of our 
capital system and its age, we can probably always make good 
use of more money at the VA. So I wanted to clarify that.
    Mr. Mitchell. Okay. So let me ask this then. You say it is 
adequately staffed, but, yet, we find claims for PTSD to be an 
average of 90 days, the backlog of claims for disabilities are 
over 177 days, and you think you have enough people to handle 
all of these claims and all these appointments that are 
necessary, and you think this 90 days for a followup 
appointment is adequate, and you think that the average of 177 
days is also adequate? And that does not take equipment. That 
takes manpower. And you say that you are adequately staffed; is 
that right?
    Secretary Nicholson. I would say I cannot respond to your 
90-day assertion about PTSD. I will have to look at that and 
get back to you. I am not aware that it is taking that long. If 
it is in Phoenix, I am not aware of that. It is not systemwide, 
I am sure.
    You are correct about the claims and that is exactly right. 
It is taking about 177 days and that is too long in my opinion. 
We have in the 2008 budget a request and so when I say we are 
adequately staffed, I incorporate our request for personnel in 
that budget request for 450 additional claims evaluators which 
we project will be able to bring that time down by at least 18 
percent.
    Mr. Mitchell. I yield my time. My time is up.
    The Chairman. Thank you, Mr. Mitchell.
    Mr. Buchanan, you are recognized for five minutes if you--
--
    Mr. Buchanan. No.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman, but I have no 
statement or questions at this point.
    The Chairman. Mr. Hall, who is Chairman of our Disability 
Assistance and Memorial Affairs Subcommittee.
    Mr. Hall. Thank you, Mr. Chairman.
    Mr. Secretary, first of all, thank you for your service in 
the service and since then in your continuing work for our 
country.
    And congratulations on your progress on the methicillin 
resistant staph infections. I know firsthand how difficult they 
can be and have family members who have suffered from drug-
resistant bacterial infections and that is a really dangerous 
thing that is happening in our hospitals. And you are to be 
commended to be spreading your program to all 155 hospitals.
    I want to say that I share Congressman Baker's frustration 
and I do not know if I was the freshman who was overly 
exuberant or not, but, what I reflect, I believe, is what I 
hear from the veterans in my district.
    And I am also one of the 305, I think you said, members of 
Congress who have visited VA facilities in my district and I do 
find them, the nurses, the doctors, the therapists, the 
caregivers in the hospitals, to be doing their very best as far 
as I can tell. And there are many things that our veterans are 
happy about with the VA system.
    However, our job, as you know, is not just to, and since we 
only have five minutes, it is not even mainly to pat you on the 
back for the things that are going well.
    I just want to ask, following up on Congressman Michaud's 
question, with the revelation that the Army and the Marines 
appear to be providing ratings under 30 percent in an effort to 
prevent wounded members of the military from receiving benefits 
from the DoD, I am concerned about efforts to develop a joint 
process for disability benefit determinations.
    How will the VA ensure that ratings reflect the nature of a 
servicemember's disability and not a bureaucratic need to 
minimize payments to the veteran?
    Secretary Nicholson. The VA makes its evaluation totally 
independent of the military's. And, in fact, the military, they 
have a different set of criteria and they are guided by the 
specific disabling condition that would make one unfit for 
continuing military service.
    To illustrate, if they had a very seriously injured 
arthritic knee or they were immobilized, that would be the 
central claim because that is the question of whether they can 
remain in active duty. And if they had a hearing loss or other 
problems, that would not be considered as I understand it.
    At the VA, when they come to us, we consider all of those 
disablements that are service connected. And part of that 
process is to authenticate whether or not they are service-
connected and we do that independent of what has gone on at 
DoD.
    Mr. Hall. Thank you. And on another topic regarding 
Congressman Mitchell's question, what would you consider to be 
a reasonable time period for veterans to wait for a claim to be 
heard? If not 177 days, what would be reasonable to you?
    Secretary Nicholson. There is a marker out there that was 
there when I came in. Just less than four years ago, it was 
taking about 220 days for these claims. But there is a marker 
that says it ought to be 125 days.
    I have asked Chairman Filner and he has consented that 
sometime, if we can ever all find the time, to just have a 
working session or roundtable and give us the opportunity to 
come over here and brief you on what is involved in making 
these claim evaluations because there is both law and case law. 
And I will just use one point to illustrate.
    If we must go back to a veteran for an additional piece of 
information to authenticate that he made a parachute jump in 
1988 at Fort Bragg and was in the 82nd, he or she, the 
claimant, has 60 days from the time we request that within 
which to respond to us. And those are linear, so that----
    Mr. Hall. I understand.
    Secretary Nicholson [continuing]. It is difficult. There 
are other things about it too. But my goal is to get it soon 
down to 145 days.
    Mr. Hall. Thank you, Mr. Secretary. Excuse me for 
interrupting you, but I am about to run out of time. And I just 
wanted to ask you last, what is the evaluation process for 
determining the level of bonuses for officers in the VA or the 
Veterans Benefits Administration (VBA)?
    Secretary Nicholson. First of all, I want to clarify 
something that Congressman Mitchell also raised. These bonuses 
were not given to any political employees. They are all given 
to career SES, Senior Executive Service, professional 
Government employees.
    And there is a very detailed prescribed set of criteria 
that we get from the Office of Personnel Management of the 
Federal Government to use in determining who should be 
considered for these bonuses. And they are based on their 
performance in our organization and in the Government, 
including our organization.
    Mr. Hall. Thank you. Maybe you can supply that to the 
Committee, if you will, or we will write and ask for it.
    Secretary Nicholson. I would be happy to.
    Mr. Hall. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    We have scheduled that roundtable on claims for May 23rd 
and your staff, Admiral Cooper and Mr. Aument, are scheduled to 
join us for that. So thank you.
    Mr. Brown, you are recognized.
    Mr. Brown of South Carolina. Thank you, Mr. Chairman.
    Mr. Secretary, I understand yesterday that you formed a new 
Advisory Committee consisting of OIF and OEF combatants and it 
was led by Lieutenant General Barno.
    Could you kind of give us a little bit about the mission of 
this Task Force?
    Secretary Nicholson. Yes, sir. Since coming into this job 
and moving around and meeting with wounded servicemembers and 
their families, it is no secret to me that they have suffered 
frustrations, anxiety. I mean, it is a tough state, first of 
all, when they get seriously injured.
    And both DoD and VA have incorporated the families very 
much into the holistic effort of recovery and rehabilitation. 
And that is a positive thing.
    But there have been cases I have known of. So I started 
going around and gathering when possible servicemembers and 
family members and just having discussion sessions with them. 
And I got a lot of good and I got some that was not very good.
    Things like I remember one young mother telling me the time 
it took to get a new pad for her son's wheelchair and that just 
should not happen. And that showed a need for better case 
management.
    And so what I decided to do is within the framework that I 
have of having advisory committees to formalize an Advisory 
Committee for OIF/OEF returnees, why family members, spouses, 
VSOs, certain Veteran Service Organizations are very involved 
with some of these, and survivors, of those who have been 
killed. They are not only to be a source of information to me, 
but for them to be out there meeting with other members that 
are similarly situated so that we know what is going on. They 
report directly to me, not through a bureaucratic screen, of 
what it is like, because then we can cut through and take 
better action.
    Mr. Brown of South Carolina. Thank you. I just applaud you 
for putting that Committee together.
    And I have no further questions, Mr. Chairman.
    The Chairman. Thank you, Mr. Brown.
    Ms. Berkley.
    Ms. Berkley. Thank you very much for your courtesy. I have 
been called down to the floor and I was very anxious to ask you 
a couple of questions. And it is lovely to see you again. I 
have three issues very, very quickly.
    There was a person from the State of Nevada, Lance Corporal 
Justin Bailey. His parents have testified in front of the 
Senate VA Committee. He returned from Iraq a few years ago. He 
sustained some injuries, but his primary problem was PTSD. He 
developed a serious drug problem. His parents encouraged him to 
get help and he eventually decided to seek help with the VA. 
And he was admitted into the West LA VA facility.
    He had a serious drug problem going in, but apparently 
nobody read his records closely enough. He was over-medicated 
by the VA when he died while he was at the VA facility trying 
to get clean. The VA gave him five different drugs at the same 
time, antidepressants, including Methadone, and he ultimately 
died of an overdose in our care.
    And I was hoping that you could look into this. His parents 
are absolutely beside themselves because they encouraged him to 
seek help with the VA and it seems as though we did not do our 
job.
    Now, I know that we cannot save everybody and mistakes 
happen, but this seemed to have been a tragedy that could have 
been avoided.
    The other thing that his parents were heartbroken about is 
it seemed that they felt they were treated with a tremendous 
disregard and apathy. When they went to collect his remains, 
they handed them their only son's remains in a trash bag. And 
it was just the culmination of treatment that they felt was 
totally inappropriate.
    That is number one. I need to continue to communicate with 
this family and ease their pain, but they are very concerned 
that their son is not an isolated incident, that it is 
unfortunately widespread. I need a report back to me.
    The other thing, and this just happened two days ago in Las 
Vegas, you know my concern because we are in the process of 
building our VA medical complex, that I have got my veterans 
waiting to be picked up by a shuttle that takes them to ten 
different locations.
    Apparently there is a Mr. Key that contracted with the VA 
as a small disadvantaged business to provide the shuttle 
service. There was a problem between the VA and the bank and 
Mr. Key, and the VA was $600,000 in arrears to pay this man.
    The local VA administrator, John Bright, had no idea this 
was going on because Mr. Key was dealing with people above him 
in the VA system to get paid. He had been talking to them for 
months because he had not gotten paid. What he eventually did 
is he pulled the plug and he called the VA in Las Vegas and 
said I am not doing your shuttle service anymore.
    All my veterans were standing there stranded with no 
shuttle service because we did not pay this guy $600,000 that 
we owed him. Can you imagine how long it must have taken to 
accumulate $600,000? I really need a report on this and we need 
to fix this quickly.
    Now, I understand that Mr. Bright is all hands on deck and 
they have got some sort of shuttle service, but this is no way 
to run a business or a Government or a VA system either.
    And as long as I am on the subject of my VA medical 
complex, I know that there is a lot of dirt being moved and 
there is some vertical construction, but I would love somebody 
that you designate to come to my office and give me a briefing 
of where we are and how we are doing.
    I have been out to the site a number of times and I see 
progress, but I want to make sure that when I report back to my 
veterans' groups, and they are asking me all the time what is 
going on out there, that I can give them an honest assessment 
and a true assessment of the progress.
    Secretary Nicholson. Thank you, Congresswoman Berkley.
    I am aware of the Bailey case and we are looking into that. 
I am not aware of the shuttle issue and we will look into that. 
Of course, we would be happy to brief you on the status of the 
construction of the new Las Vegas hospital.
    Ms. Berkley. Now, let me just mention this. This 
disadvantaged small businessman says he is now having to file 
bankruptcy. That should not be if they are dealing with a 
Government agency, that a disadvantaged small business has to 
file bankruptcy because we did not pay him.
    But that is a concern of mine. But the bigger concern is, 
it is going to be 110 degrees in Las Vegas a month from now and 
I just cannot have my veterans standing outside in the heat 
waiting for some shuttle that may or may not show up.
    Thank you.
    Secretary Nicholson. Thank you.
    The Chairman. Thank you, Ms. Berkley.
    Apparently what happens in Vegas does not stay in Vegas.
    Mr. Bilirakis, you are recognized.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    Good afternoon, Mr. Secretary. I have one question. One of 
the Task Force recommendations included enhanced capacity for 
servicemembers to receive dental care in the private sector as 
the VA works to improve its capacity to provide these services 
at the VA facilities. Can you give us an update on that? Has 
any action been taken?
    Secretary Nicholson. Well, the action that is being taken, 
Congressman Bilirakis, is that we are expanding the 
availability of contracting out fee-for-service dental care, 
the result of more need for it.
    Mr. Bilirakis. Okay. Thank you.
    The Chairman. Thank you, Mr. Bilirakis.
    Mr. Walz, you are recognized.
    Mr. Walz. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for what you are doing and 
taking the time to come see us today. And I do think it is 
important as many of the members here have mentioned for us to 
stress the positives of what we are doing with the VA and with 
our veterans.
    Out in my district and out in Minneapolis at our polytrauma 
center there, which I would consider to be probably one of the 
more premier facilities in the world, and they are doing great 
work.
    And I sat up there in the polytrauma ward with mothers from 
Michigan and their sons who have multiple amputations and have 
TBI. And they will stress that the only thing keeping them 
going is the angels on that floor that are serving them.
    So I do think it is important that we are here because the 
bottom line on this is this is an outcome-based proposition 
that is zero sum. We will never rest until everyone is taken 
care of to the best of our ability. I know you share that with 
me and that is our responsibility. So I am not here with joyful 
enthusiasm. I am a new member, but I am not joyfully 
enthusiastic. I am here with a deep sense of solemn duty and a 
responsibility to get this right. So I thank you for being 
here.
    I also in my time prior to coming here, my postgraduate 
work was in organizational analysis, so I am looking at it when 
you are talking the gap analysis. I know it is one of many 
tools. I think it is very important for us not to forget words 
like optimal allocations of inputs and things like that. It is 
a way you have to use it as a management tool, but these are 
veterans, these are people, and we can never forget that.
    So when I heard things that everything is fine, we are 
reducing numbers, one is too many, and it gets frustrating. 
When my veterans see, they will see a document and they will 
see it is well done and they see great things in here and they 
will ask me the question, so what, I still cannot get in. And 
so that is why we are here and that is where we are coming.
    I want to ask one particular question. I noticed, and I am 
glad this was listed as P1, the recommendation and the process 
for disability determinations, which is obviously the big 
issue, and I see in here that we went through the gap, we did 
the recommendations for the gap and then we did the 
implementation and action target date.
    We have met those apparently and we had the joint meeting 
on May 3rd. What next? What do I tell my people? And what I see 
in here, Mr. Secretary, you said, and I appreciate you saying 
this, that you take personal responsibility to make sure these 
things get done. I appreciate you saying that, but I also state 
that you took that on when you took the job. Tell me now how 
this P1 is going to be implemented.
    Secretary Nicholson. Well, I mentioned, and I think you 
were here, that things are moving on that. And there was a big 
meeting yesterday in the Deputy Secretary of Defense's office, 
Secretary England. Secretary Gates served on my Task Force. He 
attended the meetings. He is up to speed on those issues and 
has delegated to Secretary England to head up their endeavor.
    So this is really getting serious and I would say 
unprecedented command focus. And as I said they have agreed to 
meet every Tuesday and there is an energy, there is a force 
behind this.
    There are, like there are in almost everything always at 
least two sides to everything and this is a complicated issue 
with the welfare and the future of a lot of people involved, 
including members of the active force who have a stake in this, 
in how this comes out. And they, of course, are going to be 
heard and represented by their service secretaries and chiefs.
    But there is a real action going on that I have never seen 
before and I do not think ever existed before.
    Mr. Walz. If we are sitting here in two years, will we 
expect to see disability determinations be made at a quicker 
pace? Would that be the outcome we are looking for? Is that 
something we cannot say can happen?
    Secretary Nicholson. I can safely say that, yes.
    Mr. Walz. All right. So if you and I are here in two years, 
we are going to take responsibility between the two of us to 
reduce that backlog and making sure that that is going to 
happen and this recommendation can help us get there?
    Secretary Nicholson. Yes. You know, I cannot wave a wand 
over all these different agencies. I chaired this Task Force. I 
reported it to the President. The President has taken it on 
board. It will be taken very seriously. And I also am in charge 
of the followup and----
    Mr. Walz. I am encouraged by that. I am encouraged that we 
are going to get this done. But you and I both know that if 
that does not translate into our veterans getting there 
quicker, it is not going to be for anything. And we have a deep 
responsibility to do that. So thank you.
    Secretary Nicholson. You are totally correct. And we have a 
lot of other things to do than to just go through another 
bureaucratic morass here. That is not my mindset on this at 
all, believe me.
    Mr. Walz. Great. Thank you, Mr. Secretary.
    And I yield back.
    The Chairman. Thank you, sir.
    Mr. Boozman, you are recognized.
    Mr. Boozman. Thank you, Mr. Chairman.
    I really do not have any questions. I appreciate the work 
of the Commission in coming up with this and really look 
forward to working with Ms. Herseth Sandlin in her capacity as 
Chairman of the Economic Opportunity Subcommittee and my 
capacity as Ranking Member of the Subcommittee and really 
looking at this and trying to see what we can do through our 
Subcommittee working with the full Committee to implement 
recommendations.
    So I appreciate your hard work. Thank you very much.
    The Chairman. Thank you, Mr. Boozman.
    Mr. Hare?
    Mr. Hare. Mr. Secretary, since part of this is also called 
returning Global War on Terror heroes that we are doing, many 
wounded War on Terror heroes seek care in our Nation's 
outpatient centers, vet centers.
    Were you in receipt of a letter that was signed by 53 
members, a bipartisan letter sent to you asking you to get back 
to us? It says we urge you to address these issues immediately. 
In addition, we would like you to know what actions are planned 
to meet the staffing crisis at the VA centers. How much Federal 
resources would be required to fully staff the vet centers over 
the next five years. I was just wondering if you were in 
receipt of that letter.
    Secretary Nicholson. Could you tell me the date on that, 
Congressman.
    Mr. Hare. April 27th of this year.
    Secretary Nicholson. I do not know the answer.
    Mr. Hare. Well, I share Mr. Baker's comments about not 
getting a response. Here is the genuine concern that I have. We 
sent this letter out and I know we are going to have a hearing 
on this later.
    And you will probably get a little of my freshman 
exuberance here, but with the shortage that we have at our vet 
centers across this Nation, I cannot for the life of me imagine 
why $3.8 million is being sent out in bonuses.
    We have 600,000 backed up claims and, yet, when you came to 
us and asked on the General Operating Expense account, you 
asked for less money than 2007 which was a cut of nearly $9 
million. So your comments about the VA having all the money it 
needs must be reflective.
    And let me just say this to you. It would seem to me that I 
do not know why our veterans have to err on the side of having 
to wait 177 days to get a claim adjusted. If these things are 
adjusted because, as you said, ``they were based on 
performance,'' I would suggest to you, Mr. Secretary, that the 
person in charge of that is doing a miserable job and did not 
deserve a $33,000 bonus.
    That said, I think our veterans are the ones that should 
have--the burden of proof should not be put on them. It should 
be put on us. If you file your income tax and you send it in, 
you are audited, you are not assumed to be a cheater. Our 
veterans are sitting here waiting for benefits that they want.
    I listened to Mr. Baker talk. Fifteen months for Gulf War 
veterans, 15 months, and the answer to him is, well, we do not 
know. Maybe another year, maybe another year and a half.
    My point is this. I may be new here, but I have listened to 
VSOs come here. I have listened to our Filipino veterans come. 
I have listened to vet after vet come and spouses of veterans 
come. I will tell you this. One hundred and seventy-seven days 
is inexcusable. To get it down to 145 days is not doing these 
veterans what I would consider to be a big favor. I think it is 
disingenuous.
    I also just want to say candidly from my perspective, we do 
not have enough money for our veterans in our budget and you do 
not have enough staff. You do not have enough polytrauma units. 
Your doctors have testified that you do not. We do not have 
enough people that are working in these clinics.
    I have four outpatient clinics in my district. I have a vet 
center one block from my district office in Moline. I worked 
for a member for 23 and a half years. I know post traumatic 
stresses. The VA is woefully unprepared for the number of post 
traumatic stress veterans that they are going to have coming 
back.
    So you will have to pardon me if I do not share your 
opinion that you have all the money that you need and that you 
are completely staffed up to what you desire.
    The fact of the matter remains, if we make a promise to 
veterans, and it makes no difference to me whether I am a 
freshman on this Committee or whether I have been here for 25 
years, as long as I sit in this chair, my responsibility is to 
those men and women who gave everything they had for this 
country and they come back and we do not even have the DoD 
talking to the VA. You have the Walter Reed scandal that goes 
on. Our records are sent out left and right.
    I think that what we need is an overhaul here. I am not 
happy with the way our veterans have been treated. I have made 
that very clear. And let me suggest to you that I think we 
really need to get down to business here. We have really got to 
put our veterans first.
    And that to me, with all due respect, Mr. Secretary, from 
my perspective of sitting here in the four months that I have 
been here, just has not been the case. I have listened to the 
DAV. I have listened to the Paralyzed Veterans of America. I 
have listened to the VFW and the American Legion come before 
this Committee. Someone told them they were too late to come. I 
do not think it is ever too late for a VSO to come to this 
Committee and ask for money that we need in the budget.
    And if the answer is the money, and the Chairman has said 
before, all we are asking for is for the VA to tell this 
Committee what it is that you need to be able to clear up the 
backlog, what is it that we can do to quit erring on the side 
of the bureaucrats and start erring on the side of our 
veterans. That to me is very disturbing and I just do not think 
our veterans have gotten a fair shake, with all due respect.
    And I would yield back.
    The Chairman. Thank you, Mr. Hare.
    Mr. Space?
    Mr. Space. Thank you, Mr. Chairman.
    Mr. Secretary, my district, like so many other members of 
this Committee, is comprised of small towns and villages, very 
rural in nature. And I am interested in the Task Force 
recommendations regarding how the VA will work together with 
HHS to provide access to those members who come from rural or 
remote areas.
    Can you give us some insight as to what the VA and the HHS 
or the Department of HHS plan to do in this regard?
    Secretary Nicholson. Yes, Congressman. First, I will say 
that we have been mandated by law to develop a new rural health 
initiative and our response in that to you is September. And we 
are heavily underway in that. That is a concern of ours. It is 
a challenge of ours at the VA.
    And at the Task Force, we had discussions with HHS about 
the ways that we could collaborate and use our facilities or 
theirs, the community mental health facilities in ways that, 
you know, we can augment and supplement each other in the 
rural, remote areas of the United States where we know it is 
difficult for veterans, some who have to travel two, three 
hours to get to a community-based outpatient clinic, longer 
than that to get to a referred acute care facility, or 
hospital. That is essentially what we are looking at there.
    Mr. Space. And you say we can expect that to be completed 
in September of this year?
    Secretary Nicholson. I mentioned that just to make you 
aware that Congress mandated us with a law to develop a new 
rural healthcare initiative in the VA. And that is underway. 
This Task Force took a tangent from that in working with HHS to 
see ways that we could supplement our gaps using existing 
facilities that are in these remote areas.
    Mr. Space. I certainly trust that the situation will be 
taken very seriously. We have veterans who are in an 
impoverished area, many of whom have no means whatsoever of 
public transportation. Private transportation in many cases is 
limited. Compound that with the price of gas now at $3 a gallon 
and going up, it represents a considerable hardship for these 
folks. And I trust that the VA will, in fact, take their 
responsibility very seriously in that regard.
    Secretary Nicholson. We do. We are. I can also tell you 
that we have made some good advances using existing technology 
for rural health in telehealth and telemedicine and including 
telemental health. And we are finding pretty good results with 
that.
    Mr. Space. I yield back, Mr. Chairman.
    The Chairman. Thank you, Mr. Space.
    Mr. McNerney?
    Mr. McNerney. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for testifying before us 
today. Like Mr. Walz, I understand and I recognize a lot of 
good work being done by the VA and by the people that are 
employed by Veterans Affairs throughout the country.
    However, I am concerned about two issues which could, with 
a little creative thinking, have a joint solution. First, I am 
concerned about the possibility of closing an excellent 
facility in Livermore, California, that serves a number of my 
constituents and is currently under reviews with the Capital 
Asset Review for Enhanced Services (CARES) Project.
    First, I would like you to shed some light on the VA's 
rationale here. Why would we be closing an excellent facility 
at a time of large-scale military action, at a time when large 
numbers of veterans from the Vietnam, Korea, and World War II 
are needing additional care?
    Secretary Nicholson. I am going to have to get back to you 
on the Livermore facility, Congressman, because I am not 
familiar with an action that we are taking there. I know we are 
not closing a hospital. And it is not on my radar, on the CARES 
screen that we have, the Capital Asset Review for Enhanced 
Services.
    So are you talking about a clinic; do you know?
    Mr. McNerney. The Livermore facility has a hospital and a 
clinic and there is also one in French Camp and there is a 
nursing home.
    But what is the rationale for considering closing 
facilities anyway? I mean, I do not understand that at this 
particular point in time.
    Secretary Nicholson. Well, I can address that point. That 
comes to us from you, the Congress, pursuant to a GAO report 
that was done on the VA some several years ago and found that 
it was inefficient, in fact maybe wasting over a million 
dollars a day with maintaining unused or under-utilized 
facilities, and told to do something about that.
    And the response was the establishment of this system 
called CARES, which is the review of all the existing plant and 
equipment to see if it is being properly used.
    And it was found that veterans like all other Americans 
have made some demographic shifts from certain locales to the 
south and the west and the southwest and that there are more VA 
facilities needed where there are higher densities of veterans 
and less needed where they left from or used to live.
    Mr. McNerney. Let me continue then. As Ranking Member Buyer 
suggested, the relatively low number of TBI and PTSD cases the 
VA is currently treating relative to the number that are 
estimated to have been exposed to conditions that might lead to 
such injuries.
    My question is this or my suggestion is this: If we 
disregard the assumption that no new funding or programs will 
be introduced, would the VA be interested in reprogramming some 
of the existing facilities currently under CARES review 
providing treatment for PTSD and TBI?
    Secretary Nicholson. Yes, indeed, if the need was shown. I 
can cite to you a couple of examples.
    We were looking at the Waco, Texas, facility, for example. 
The veteran population count was down from what it used to be. 
Many of these facilities were put in place right after World 
War II. That facility has been established as a Center of 
Excellence. Similarly in Canandaigua, New York, the same sort 
of demographic experience. It has been made a Center of 
Excellence and these will be for mental health facilities, 
mental healthcare.
    So the answer is yes. I mean, we will have the facilities 
that, you know, are needed. And this is a high priority.
    And I would like to correct something that, again, 
Congressman Hare said. I did not say here today that we have 
all the money that we need. We are big and we are dynamic and 
there are other things that we could do both program-wise and 
facility-wise.
    We have an excellent team of people, however, on board to 
treat posttraumatic stress disorder. I think we are the 
preeminent experts on that in the world and we have the 
preeminent research facility on that at White River Junction, 
Vermont. And we are now screening diligently for that and 
treating veterans for that. If we need additional facilities to 
do that, we will indeed come forth and request those.
    Mr. McNerney. Well, it seems like we are going to be 
overwhelmed by that sort of injury fairly soon if we are not 
already. So thank you.
    I yield.
    The Chairman. Thank you, Mr. McNerney.
    As a part of housekeeping, I ask unanimous consent that all 
written statements be made part of the record. Without 
objection, so ordered.
    I ask unanimous consent that all members be allowed five 
legislative days to revise and extend their remarks. Without 
objection, so ordered.
    Mr. Buyer, you are recognized for five minutes.
    Mr. Buyer. Thank you.
    Let me pick up on Mr. McNerney's point. The actual number 
of TBI cases that you treated in the VA is what, how many that 
you know of?
    Secretary Nicholson. I think that we are treating in the 
vicinity of 220,000 veterans for PTSD.
    Mr. Buyer. No. I am talking about at your polytrauma 
centers for traumatic brain injury inpatients.
    Secretary Nicholson. Oh, I am sorry. Yes. In our polytrauma 
centers, we have so far treated 369 veterans.
    Mr. Buyer. Three hundred and sixty-nine. An allegation has 
been made that you do not have the bed space at the polytrauma 
centers to care for all of them. Would you respond to that 
because I believe you have empty beds at the polytrauma 
centers?
    Secretary Nicholson. Yes. That is not the case. We have 
four level-one polytrauma centers and we have 17 level-two 
polytrauma centers. So we have one in every medical region of 
the country and----
    Mr. Buyer. When you say that is not the case, what does 
that mean? What is not the case?
    Secretary Nicholson. If someone asserts that we do not have 
capacity, that is not the case. We have capacity. I might add 
that many of our patients in our polytrauma centers are active 
duty military because they are acutely brain injured. They come 
to us very soon not worrying about their status.
    The Chairman. Would you yield to me for one second----
    Mr. Buyer. Yes.
    The Chairman [continuing]. Because this issue is very 
important. As I understand it, Mr. Buyer, Mr. Secretary, the 
centers are treating severe TBI, whereas so-called moderate or 
mild TBI, which I would rather call hidden because it is going 
to really influence people, are not being treated there. And 
that is where I am told we are going to have thousands of 
cases.
    Mr. Buyer. You are going right into where I was asking 
questions.
    The Chairman. Okay. I am sorry. I yield back.
    Mr. Buyer. No, no, no.
    The Chairman. But that is where the issue is.
    Mr. Buyer. Right.
    The Chairman. And that is what we want the preparation for.
    Mr. Buyer. But I wanted to set the baseline.
    The Chairman. Okay.
    Mr. Buyer. The baseline is a relatively small number with 
regard to your treatment of these traumatic brain injured. It 
is traumatic. This is tremendous trauma.
    But we have a really strong concern. We have done well with 
regard to up-armored Humvees, some of the other vehicles, the 
Buffalo, the V shape that we are going to, and the soldiers, 
they get out, they are in awe, they are in shock that they have 
survived. They are photographing, my God, I have just survived 
this and it is later on that they are having some difficulties, 
memory loss, in brushing their teeth, you know, weird things 
are happening to them.
    And these are the cases that Mr. Filner and I are pretty 
concerned about. So how do we discover them, track them, bring 
them into the systems, and that kind of thing? But I was just 
trying to establish the baseline.
    So we want to work with you on making sure that you have 
the capacity and you work inter-operably with DoD. Do you agree 
with that?
    The Chairman. Yes.
    Mr. Buyer. Okay. I also want to share my feelings with Mr. 
Filner in his opening with regard to the report, but you also 
had some restraints. You had to make some decisions inside the 
box with regard to what can you do without new resources. And I 
do want to have a follow on discussion.
    Maybe you can meet with Mr. Filner and me or other 
interested members about beyond that because even when we did 
Wounded Warrior, Mr. Filner and I worked together to do the 
electronic medical records and actually mandated them. Sure, it 
was in the Wounded Warrior legislation, but then when we put it 
in the DoD authorization bill, the Congressional Budget Office 
(CBO) came back and gave this huge number, billions that this 
would cost, so we had to scale it back to basically say Joint 
Patient Tracking Application (JPTA). And we could do that and 
make it inter-operable, bi-directional, and share the 
information and add no cost.
    So we also then were thrown back in the box, but there are 
some big things that we have to do and I think that sort of is 
the emotional flow of Mr. Hare. There are some big things out 
there that kind of need to be done. So I would like to do that 
with you, Mr. Secretary.
    Now I am going to jump really deep in the weeds. When I got 
to your to improve IT inter-operability, it is on page 72 of 
the report, HHS is going to be the lead agency on this. You are 
going to sign an MOU.
    And, Admiral, maybe you can help me here. When you 
establish this inter-operability with HHS, is this being done 
in the arena of risk management?
    In your reporting requirements in all of your hospitals and 
your outpatient clinics with regard to the adverse events 
because of the Prescription Drug User Fee Act (PDUFA) and 
Medical Device User Fee and Modernization Act (MDUFA), so you 
have adverse events reporting requirements under the post-
marker reviews, and if you can electronically move this to HHS, 
we are reducing a tremendous amount of paperwork and burden. 
And this is part of the goal? I cannot get this from what you 
have here.
    Secretary Nicholson. Well, that is an important question, I 
think. What we are going to do is to have this joint group that 
is working on that. I mean, the President has thrown down a 
marker on trying to both standardize and universalize 
electronic health records in the movement and communication of 
it.
    And the Secretary of HHS, for example, has the 
responsibility to develop the protocols so that different 
organizations of the government and the private sector can 
establish their systems and their proprietary prerogatives. But 
they need to communicate. And this joint group has taken on 
this responsibility right now of working that.
    Mr. Buyer. Please place that into consideration in the 
interface with HHS on risk management----
    Secretary Nicholson. All right.
    Mr. Buyer [continuing]. And post-marker review. The last 
thing I have, Mr. Chairman, is on this page 70 through page 74, 
you lay out all of these target dates for implementation.
    And so, Mr. Secretary, what assurances can you give the 
Chairman and the Committee that--what assurances do you have 
that other Federal agencies involved in this process, notably 
DoD--will take implementation of the Task Force recommendations 
seriously as you have? I mean, who is going to be the person? 
Has the President tasked you to turn to your counterparts and 
say this is the date, you have not implemented? I mean, who is 
the task master with regard to implementation?
    Secretary Nicholson. Well, they have signed on. They have 
signed an agreement to participate and to abide. I mean, these 
schedules were not developed by us in a vacuum. They were 
collegial. And I am happy to say that, you know, so far, so 
good on compliance, very encouraging.
    These things are considered extremely important to the 
mission which is serving these current combatants and so they 
have a sense of urgency about them and that was established 
early in this process. And we want that to remain there.
    You know, if they go slack, I will try to motivate them or 
indeed the Commander in Chief might get involved because he has 
a real interest in this.
    Mr. Buyer. In closing, Mr. Secretary, what you have proven 
to Mr. Filner and me is when you were faced with a tremendous 
challenge, you told us you will take ownership of that issue 
and you did. So whether it is IT or this, you have proven 
yourself to this Committee.
    Now we have a tremendous responsibility being in charge for 
the President with regard to these initiatives. And I suppose 
Mr. Filner and I are--I want to make sure we are touching the 
right person.
    Are you saying to us that each of them, your other 
Secretary counterparts, they are the ones who are now 
responsible for the implementation? I see a nod from the back 
of the room. That is what we are to assume and that you are 
going to be responsible for your piece of this. You are going 
to have to turn to Duncan Hunter or somebody else with regard 
to the other Committees with regard to implementation. So we do 
not come back six or eight months from now and go after you and 
say how come so and so missed their targets. In other words, 
when you step away, you are no longer the guy in charge of the 
Task Force?
    Secretary Nicholson. Well, I am coordinating it as the 
Chairman. I am coordinating it. I do not have command 
responsibility over those other service sectors, but I am 
coordinating it in this role that I have been given.
    Mr. Buyer. Okay. Thank you.
    The Chairman. Thank you, Mr. Buyer.
    Thank you, Mr. Secretary.
    Let me try to summarize what I think a lot of my colleagues 
have said and some of the frustration we have. We agree with 
you that there is a tremendous number of good things happening 
in the VA in the medical area and committed people everywhere 
you go who want to serve veterans. I know medical directors 
could probably earn twice as much outside the VA and they are 
committed to veterans. So we agree with you on that.
    On the other hand, I think what the American people want 
and I think what we want and I think what you want, and if 
there is a silver lining in the cloud that Walter Reed 
represented, it is that people are ready for bold action.
    You said there is a sense of urgency among everybody and 
yet what we see is a process. It seems to me that we are 
allowing the bureaucratic needs of not only your agency but 
every agency to set the pace rather than the needs of our 
veterans.
    Look at this report. This is stuff that you did not need 
any new money or any new authority I do and it goes on for a 
year, year and a half. We could do it today.
    The claims backlog that several people have brought up, I 
think we have to, and we have talked about it, cut through the 
whole mess. Give veterans the benefit of the doubt. Either work 
it like the IRS and send them the check and audit later, start 
some minimal check when we receive their claim. We are going to 
talk about all these things when we have this roundtable on May 
23rd. But we cannot keep saying we have this backlog and we are 
going to solve it. We have got to cut through it.
    The health records interoperability, how many years have 
you been talking about this? This is not rocket science, as you 
pointed out. It takes somebody to say, ``do it tomorrow.'' We 
worked together at Chicago where they have, it looks like to 
me, made significant progress in this.
    If the VA has the better health records system, which I am 
told, the VistA System, order the DoD tomorrow to use that 
system. We cannot wait years and years and years and years and 
years, as everybody seems to suggest.
    These are kids. We have all been to see these kids with 
brain injuries and amputations and even World War II veterans 
are still very frustrated and Vietnam vets are frustrated. We 
cannot wait. We want bolder action.
    Take PTSD for instance, since everybody seems to have a 
greater appreciation of it. I do not think we have adequate 
staffing. And if you made that statement in a townhall meeting 
that any of us led with you, they would boo you off the stage. 
They have made calls. I have talked to people who have said you 
are either on a waiting list and then when I got mad at waiting 
lists, they stopped doing waiting lists and just said call back 
in three or four weeks.
    We know the story of the Minnesota Marine who was told that 
he would be 26th on a waiting list, so he committed suicide. We 
cannot wait. We have got to have the staffing there.
    And we have, I think, resources, Mr. Secretary, outside the 
VA that we need to welcome in and bring in. There are experts, 
and we are going to have a symposium on PTSD on May 16th, 
experts around the country on brain injury, trying to tell the 
bureaucracy ``we want to help'' and, yet, bureaucratic needs 
outweigh the need for urgency.
    I have visited with dozens of people who have programs that 
they think could help veterans with PTSD. And I am sure that 
all of them work. And we talked about setting aside a certain 
part of the money to help these community groups.
    There is a young man named Sean Hughes in Los Angeles, came 
back as a Marine with severe PTSD. He did not think he was 
making much progress in normal treatment, so he started writing 
his own feelings down in the form of a play. His play was 
produced. It was called Sandstorm. Some of you may have seen 
it. To try to work out his feelings. And he felt so healed by 
that that he set up a group called Vet Stage that he invited 
his comrades in to write and act, do such things as lighting 
and directing plays.
    And I saw a play of his in Los Angeles called The Wolf. And 
it had a very powerful statement of what people feel when they 
get out of a combat situation. And he is running this program 
on a shoestring. Thirty people can see the play at once.
    I go a few minutes later over to the West LA complex where 
there are two theaters run, I think, by UCLA. Surely Mr. Hughes 
might use that theater when it is not being used by UCLA.
    Regarding the Livermore situation that Mr. McNerney brought 
up; I have not been there, but I am told it is a very beautiful 
site, very conducive to relaxing rehabilitation for PTSD 
victims.
    So, we have talked about being creative, being bold. People 
do not want to wait for this stuff. We will never respond as 
quickly as someone needs, but we have got to have a quick 
response as a goal. We cannot allow ourselves to be victims of 
processes to say, okay, it is going to take a year before we do 
this stuff. That is not an answer for the people we are calling 
heroes. We know they are heroes. We want to treat them as 
heroes. But, telling someone they are 26th on a waiting list, 
that is not treating them heroically.
    So as Mr. Buyer said, we look forward to working with you. 
People want bolder action. They do not want this process stuff. 
Let us announce some bold actions, whether it is targeting 
several hundred million dollars to the kind of thing that Sean 
Hughes is doing and people are doing all across the country, 
whether it is setting aside some of these facilities that have 
outlived their usefulness in the context that they were built 
but can serve other functions now.
    People have offered brain injury beds in their clinics. Let 
us do it and not just study it and set up a process. I think 
that is our frustration. I know it is yours too. But I think we 
have to have some evidence that we are cutting through it.
    Mr. Secretary you have listened to all of us all day. I 
would be happy to give you as much time as you want either to 
conclude or respond to anything anybody here has said.
    Secretary Nicholson. Well, thank you, Mr. Chairman and 
members of the Committee. I genuinely appreciate the chance to 
come over here, present the work of this Task Force so far, and 
to respond to your questions because I know they are sincere.
    We are a big organization. Last night we got this letter 
from AARP, a bulletin called Vetting the VA and it is just 
extremely complimentary of the VA and the job it is doing.
    I have in my files letters from the heads of three Veteran 
Service Organizations complimenting the job that the VA is 
doing.
    So I say that because we are a big organization populated 
with people that I find to be very committed to the mission 
which is to serve veterans. And many of them, including many if 
not all of these Senior Executive Service people, working in 
this medical field could be making tremendously more money on 
the outside. I know what those people are making. Yet, they are 
staying there.
    So it is important, I think, that we recognize our 
shortcomings and we have some. We see over a million patients a 
week now. And as somebody said to me in St. Louis yesterday at 
the hospital, he said if we get it right 99.5 percent of the 
time, we are still going to have some problems. And we take 
those problems seriously, each of them, and see what we can 
learn from those and improve.
    But I have a real concern for the people who work at the 
VA, many, many of whom are veterans and their morale and their 
need to be, I think, shown some respect and gratitude as well. 
And I do that every chance I have. So I am doing it now as 
well.
    It is really a phenomenal organization with a clear mission 
to take care of what President Bush called last Veterans Day 
our Nation's finest citizens. And we are hard at it, but we 
welcome the oversight and the constructive inquiry and 
criticism that we get from you.
    And somebody told me today in preparing to come over here 
that there are, I think, 66 agencies, including the VSOs, that 
are licensed, accredited to come in and inspect VA facilities. 
So we do have quite a lot of oversight. And I think that as I 
move around and visit with veterans as I do continually and ask 
them how we are doing, they are generally extremely grateful 
and complimentary of the care that they are getting.
    There is a frustration in the time it takes to adjudicate a 
claim. That is a top priority of mine. And we are working on 
that. We are looking at some of these creative ways of 
reversing the assumption about the validity of the claim. But 
that is in motion.
    But in summary, Mr. Chairman, I appreciate the chance for 
us to be here and I appreciate your leadership of the Committee 
and that of the Ranking Member, Congressman Buyer, because I 
know how much you care. Thank you.
    The Chairman. Thank you, Mr. Secretary.
    This hearing is adjourned.
    [Whereupon, at 3:58 p.m., the Committee was adjourned.]































                            A P P E N D I X

                              ----------                              

        Opening Statement of the Honorable Bob Filner, Chairman,
     and a Representative in Congress from the State of California
    The Committee on Veterans' Affairs will come to order. I would like 
to thank the Members of the Committee for being here this afternoon.
    I would like to thank Secretary Nicholson, who chaired the Task 
Force, for appearing before us today to provide us with the results of 
the Task Force report, which was submitted to the President on April 
19, 2007.
    The Task Force was created, by Executive Order, on March 6, 2007. 
The mission of the Task Force was to:

    <bullet>  identify and examine Federal services and benefits 
currently provided for returning servicemembers;
    <bullet>  identify existing gaps in such services;
    <bullet>  seek recommendations from appropriate Federal agencies on 
ways to fill those gaps as effectively and expeditiously as possible 
using existing resources; and
    <bullet>  ensure that, in providing services to those 
servicemembers, appropriate Federal departments and agencies are 
communicating and cooperating effectively and facilitate the fostering 
of such agency communications and cooperation through informal and 
formal means, as appropriate.

    The Task Force report identified 15 ``process'' and 10 ``outreach'' 
recommendations. Of these 25 recommendations, the report states that 
``18 represent collaborative efforts among Federal entities.'' The Task 
Force will reconvene in approximately one month to provide updates on 
the progress of the Government-wide action plan. The Committee looks 
forward to the Secretary's report on these 25 recommendations.
    I know that I speak for many of my colleagues here today in 
expressing our fear that the recommendations of this Task Force report 
will meet the fate of so many other recommendations from other reports 
from the last decade--that there will be great fanfare and very little 
action.
    Many of these recommendations are not new. Many of these 
recommendations will face the same problems of implementation as so 
many recommendations of the past--the inability of the Department of 
Veterans Affairs and the Department of Defense to work together in an 
effective manner to address the problems and hurdles faced by our 
returning servicemembers.
    This Committee is sensitive to the difficulties involved in 
coordinating the activities of the Department of Defense and the 
Department of Veterans Affairs. These Departments do indeed have 
different missions and different requirements.
    But as we meet here this afternoon our servicemembers are in harms 
way. Many of these men and women will be killed or wounded. We have 
talked and talked about the necessity of providing a seamless 
transition for years. We no longer have the luxury of time, if we ever 
did--we simply must act today.
    It is my hope that Secretary Nicholson will provide us with 
concrete answers as to why this Task Force report will be different 
from the Report of the President's Task Force to Improve Health Care 
Delivery for Our Nation's Veterans, released in 2003, and the Report of 
the Congressional Commission on Servicemembers and Veterans Transition 
Assistance, released in 1999.
    We seek a detailed timeframe as to implementation, the officials 
who will be responsible for implementation, and how the Secretary will 
inform this Committee as to the progress of implementation. This 
Committee seeks accountability and will look to Secretary Nicholson to 
provide this personal accountability.
    I note that the ``Government Wide Action Plan'' in the report lists 
a number of actions that were targeted to be completed after the 
release of the report and before today. As of today, Mr. Secretary, 
have all of these deadlines for action been met?
    Finally, I am concerned that the mission of the Task Force was 
constrained by being forced to concentrate on solutions using existing 
resources and available authorities. This reliance begs the question as 
to why these steps were not taken earlier, if it was indeed only a 
matter of existing resources and available authorities. It also raises 
the larger question as to what resources and authorities the VA needs 
to provide the long-promised seamless transition between the VA and DoD 
once and for all.

                                 <F-dash>
            Opening Statement of the Honorable Steve Buyer,
 Ranking Republican Member, and a Representative in Congress from the 
                            State of Indiana
    Good afternoon.
    Mr. Chairman, thank you for holding this hearing.
    Mr. Secretary, thank you for being here today and for chairing this 
Task Force. The President has made clear his intent that we once and 
for all establish a truly seamless transition for servicemembers 
between the military and the VA, as well as other agencies providing 
services to veterans. You and your colleagues on the Task Force have 
produced a thorough review of the factors affecting seamless 
transition, and are to be commended.
    However, over the past 15 years, I have seen one commission and 
task force report after another. From my own personal experience with 
seamless transition, I know there are few new discoveries. What we have 
regrettably seen, and what compelled the President to directly 
intervene, is a general lack of implementation. To be fair, VA has made 
much progress; it has in fact led the federal effort. But VA cannot do 
it alone.
    Mr. Secretary, with the Task Force's work behind us, this report 
before us, and the President's intent made clear, we now must have 
implementation. In a few short weeks, the President is due to receive a 
progress report on the implementation of the recommendations from the 
report. We in turn will look for department and agency heads, in 
particular you and Defense Secretary Gates, to work together to move 
your respective departments forward.
    When that happens, we can talk about real progress.
    This report is, nonetheless, encouraging. Among the Task Force's 25 
recommendations, a handful alone would dramatically improve transition 
and must become a high priority within the administration. These 
include:

    <bullet>  Development of a system of co-management and case 
management for returning servicemembers to facilitate transition 
between the Department of Defense and VA.
    <bullet>  Screening all Global War on Terror veterans seen in VA 
healthcare facilities for mild to moderate traumatic brain injury.
    <bullet>  Expanding VA access to DoD records to coordinate an 
improved transfer of a servicemember's medical care through patient 
``hand-off.''
    <bullet>  Development of a joint DoD/VA process for disability 
benefit determinations by establishing a cooperative Medical and 
Physical Evaluation Board process within the military service branches 
and VA care system.

    Among my goals here on the Committee, is to ensure that veterans 
have every opportunity to live full and healthy lives--that they can 
take advantage of the economic opportunities their service helped 
preserve. Among key recommendations from the Task Force report that 
would help veterans transition into civilian life:

    <bullet>  Increasing attendance at the Transition Assistance and 
Disabled Transition Assistance Programs for active duty Guard and 
Reserve.
    <bullet>  Requiring the Department of Education, in cooperation 
with the Department of Labor, to participate in DoD job fairs to 
provide returning servicemembers and their families with an awareness 
of the postsecondary education benefits.
    <bullet>  Requiring the Department of Labor, through the Veterans' 
Employment and Training Service, to participate in the Workforce 
Investment System in every State and territory; and partnering with 
private and public sector job fairs to expand the number of employers 
involved in active veteran recruitment.

    The accomplishment of these recommendations, as well as others, is 
critically important. Since 2003, this Committee held more than 10 
hearings and conducted at least 15 site visits focusing on seamless 
transition. Our experiences corroborate the value offered by these 
recommendations.
    Yet, it already appears there is some reason for concern over 
implementation of the Task Force's 25 recommendations. The 
implementation target dates for 12 actions supporting the 
accomplishment of nearly half of those recommendations have already 
passed. At this point, we do not know if these actions have been 
completed.
    Of additional concern is the apparent lack of a single point of 
accountability short of the President to ensure interdepartmental 
action. It is unclear to me who in the Administration is responsible 
for monitoring and enforcing timelines and implementation. Our odyssey 
with this issue, as well as our experience with moving the Department 
to a centralized system of information technology management 
unequivocally attests to the supreme importance of accountability.
    I look forward to learning about the Departments' implementation of 
the Task Force's recommendations, and to learning what is being done to 
fulfill the President's intent in a timely fashion.
    Again, thank you, Mr. Chairman, and I yield back.

                                 <F-dash>
         Opening Statement of the Honorable Ginny Brown-Waite,
         a Representative in Congress from the State of Florida
    Thank you, Mr. Chairman.
    I also want to thank Secretary Nicholson for appearing before the 
Committee today.
    Responding to the problems at the Walter Reed Army Medical Center, 
President Bush took the appropriate step of creating the Task Force on 
Returning Global War on Terror Heroes. This panel worked tirelessly to 
identify recommendations on how Congress can improve the care and 
support for our returning soldiers. Their findings focused on several 
key areas, including healthcare services, employment assistance, 
benefits, and outreach efforts.
    Mr. Chairman, with thousands of wounded soldiers returning from the 
front lines in Iraq and Afghanistan, Congress has an obligation to 
ensure that these individuals receive the best healthcare in the world. 
Never again should we see a breakdown like what occurred at Walter 
Reed. Congress, the VA, and DoD need to work together to bring about 
the changes needed in caring for our veterans.
    I look forward to hearing from the Secretary about the panel's 
findings. Thank you.

                                 <F-dash>
             Statement of the Honorable R. James Nicholson,
             Secretary, U.S. Department of Veterans Affairs
    Mr. Chairman, Members of the Committee, good afternoon.
    Thank you for the opportunity to discuss the Task Force on 
Returning Global War on Terror Heroes and the steps which will be taken 
to ensure that the Nation's promises to those veterans and returning 
servicemembers are kept.
    In the past, Congress has demonstrated the value they placed on 
military service by creating programs to provide military personnel and 
eligible veterans with benefits and services to help them readjust to 
civilian life.
    Under President Bush, and at Congress' direction, there have been 
tremendous strides in addressing the needs of our Nation's veterans.
    As the War on Terror continues, however, it has become apparent 
that a government-wide approach which addresses all aspects of caring 
for our most recent heroes is necessary. Although VA's healthcare is 
noted nationally as one of excellence, there are always ways in which 
we can improve both our medical care as well as processes to better 
serve our veterans.
    While DoD has been praised for the life-saving medical care that it 
provides on or near the battlefield beginning minutes after injury, the 
condition of Building 18 of the Walter Reed Army Medical Center was a 
call to arms for those of us who took the oath to serve our returning 
servicemembers. The President, like the rest of the Nation, was 
infuriated by the conditions at Walter Reed's outpatient facility and 
wanted to ensure that our servicemembers and veterans' needs were being 
met and wanted to swiftly address any areas in which services to 
veterans could be improved.
    On a personal note, as you know I am a veteran of the Vietnam War. 
I am also the son of a veteran. I am the father of a veteran and the 
brother of a veteran. I am the uncle of four active duty colonels, one 
of whom is in his 14th month of service commanding a brigade in 
Afghanistan. In my capacity as the Secretary for the Department of 
Veterans Affairs, I have the ongoing privilege of meeting our Nation's 
heroes from across the country. The issue of their care and meeting 
their expectations upon their return home is a personal one to me and 
one in which I can emphatically state that I know and understand.
    To address the very real needs of returning servicemembers, 
President Bush created the Interagency Task Force on Returning Global 
War on Terror Heroes on March 6, 2007.  This Task Force was given 45 
days to review all government services upon which veterans and 
servicemembers rely when they return home. The membership of this Task 
Force consisted of the Secretaries of Defense, Labor, Health and Human 
Services, Housing and Urban Development, and Education, plus the 
Director of the Office of Management and Budget, the Administrator of 
the Small Business Administration, and the Director of the Office of 
Personnel Management.
    President Bush appointed me Task Force Chair. The Task Force's 
structure provided an opportunity to establish interagency cooperation 
in delivering benefits to our Global War on Terror [GWOT] 
servicemembers and veterans.
    The President's Executive Order directed the Task Force to:

    <bullet>  Identify and examine existing Federal services that 
currently are provided to returning GWOT servicemembers;
    <bullet>  Identify existing gaps in such services;
    <bullet>  Seek recommendations from appropriate Federal agencies on 
ways to fill those gaps;
    <bullet>  Ensure that appropriate Federal agencies are 
communicating and cooperating effectively; and
    <bullet>  Develop a government-wide action plan that ensures that 
in providing services to these servicemembers, appropriate Federal 
agencies are communicating and cooperating effectively.

    We sought input from stakeholders. We considered this essential if 
we were to be successful. Within 48 hours of the Executive Order, the 
Task Force had a functional website to seek input from veterans, active 
duty personnel, veterans' service organizations, federal employees, and 
other interested parties.
    We received over 2,400 communications by email, regular mail, and 
fax. Each was identified as raising either constituent casework and/or 
policy issues which needed further review by the Task Force. In 
addition, we met with Veterans Service Organizations (VSOs) to discuss 
their concerns and ideas as to how we could improve our service to 
veterans and servicemembers. Equally as important, Admiral Patrick 
Dunne, the Executive Secretary of the Task Force and my Assistant 
Secretary for Policy and Planning, and I met with servicemembers and 
their families to solicit their input for this Task Force.
    The Task Force utilized a ``gap analysis'' approach to determine 
the manner and extent to which services and benefits are provided to 
servicemembers and veterans. This approach defined what currently 
exists, identified what is needed or desirable, and determined the 
process to achieve the identified needs. It inventoried Federal 
services and benefits available to servicemembers and veterans. Work 
groups assessed and analyzed emerging themes related to the current 
delivery of services and benefits. The Task Force then developed 
recommendations that could be implemented within agency authority and 
existing resources.
    The Task Force's 25 recommendations involve collaborative efforts 
among several federal entities to improve the timeliness, ease of 
application, and delivery of services and benefits to those who earned 
them. The Task Force focused on Healthcare, Benefits, Jobs, Education, 
Housing and outreach to servicemembers and their families about 
available benefits and services. The Task Force also addressed 
information technology such as enhancing VA's Computerized Patient 
Record System, improving VA access to electronic medical records of 
servicemembers treated in VA healthcare facilities, and the improvement 
of the electronic enrollment process.
    I would like to highlight some of the recommendations in this 
report which improve services to veterans.
    One of the reports' recommendations pertains to evaluating an 
injured servicemember's disabilities. As part of this effort, DoD and 
VA will develop a joint process for disability benefit determinations 
by establishing a cooperative Medical and Physical Evaluation Board 
process within the military service branches and VA. Meetings have 
already occurred to begin this process.
    Another recommendation will develop a system of co-management and 
case management to ensure continuity of care, benefits, and services to 
injured military personnel and disabled veterans. Currently there is no 
formal policy that outlines the procedures to be used by VA and DoD 
when their case managers co-manage the care of a patient.
    In order to bridge the informational gap around the programs 
available, the Department of Education staff will participate in 
selected Department of Labor sponsored job fairs conducted for 
servicemembers and provide quarterly information for inclusion in VA's 
GWOT newsletter. Another cross-cutting recommendation is the ``Hire 
Vets First'' campaign. For this, the Department of Education will 
coordinate with other Federal partners to integrate a campaign with 
existing job/career fairs to promote awareness of the campaign to 
employers and servicemembers seeking employment.
    The Department of Labor (DoL), along with DoD, has been tasked to 
improve job qualification, certification, and credentialing 
opportunities for transitioning servicemembers by working with 
certifying entities to develop credentials for military training and 
experience.
    The Small Business Administration will work with DoD, DoL, VA and 
all federal agencies with procurement authority to implement the 
PatriotExpress Loan Initiative in order to better meet the needs of 
veterans, service-disabled veterans, activated Reserve Component 
members, discharging servicemembers, spouses, survivors, and dependents 
of servicemembers who died in service, or of a service connected 
disability.
    Another example of this Task Force's work is the recommendation to 
better educate transitioning servicemembers on the benefits available 
to them with regard to financial aid. For this, a financial aid 
information module will be developed for the Transition Assistance 
Program and Disabled Transition Assistance Program (TAP/DTAP). This 
module can be integrated into any presentations currently provided.
    The report was submitted to the President on April 19, 2007 and 
Admiral Dunne and I briefed him on the Task Force and its 
recommendations. The President welcomed the Task Force's 
recommendations and directed me to begin implementation and report back 
to him in 45 days on their progress. The action plan contained in the 
report specifies required steps for each recommendation and a timeline 
for those actions which we are tracking closely. In addition, there 
were Congressional Committees and VSO briefings on the final report.
    Although the report has been completed, the Task Forces' work is 
not done; only when the gaps noted in the report are successfully 
closed will we have fulfilled the President's charge as outlined in the 
Executive Order. I take personal responsibility in assuring Congress, 
veterans and servicemembers that this report will be accompanied by 
definitive and measured actions to achieve its goals.
    Toward that end, the President asked me to communicate directly 
with the Commission on Care for America's Returning Wounded Warriors 
led by former Senator Dole and former Secretary Shalala to ensure both 
groups exchange ideas, advance reform efforts, and, to the extent 
possible, provide assistance to their report so they can build upon the 
work of the Task Force. I have spoken to both Senator Dole and 
Secretary Shalala about our efforts and my staff has continued contact 
with the Commission as they proceed with their work.
    There is much work to be done but we can and must work together to 
ensure that our returning heroes receive the best healthcare and the 
full range of benefits and services they deserve.
    In addition to the recommendations identified by Interagency Task 
Force, VA is focusing on other areas in which we can improve services 
to veterans independent of this report such as information technology 
and data security. The VA leads the world in the use of electronic 
medical records. Every one of our nearly 8 million enrolled patients 
has an electronic medical record allowing a veteran to access his or 
her records anywhere in this vast system. Additionally, while Katrina 
required us to evacuate thousands of people, we didn't lose a patient 
or a medical record. The same cannot be said of the civilian sector.
    Secondly, we have a high rate of diabetes among veterans that we 
are treating. Nearly a quarter of the veterans we treat have been 
diagnosed with diabetes. In response, we have initiated educational 
programs, in collaboration with HHS, to ensure that individuals 
understand the causes of Type II diabetes and what they can do to 
control the disease, including weight control.
    Thirdly, in response to a U.S.-wide rise in methicillin resistant 
staph infections, we have begun an initiative in our Pittsburgh 
facility, which has cut staph infections by 70 percent. This program, 
which focuses on disciplined sanitation measures, will be enacted 
throughout our entire system.
    I should note that over the years, a number of commissions, 
advisory panels and government study groups have looked at similar 
issues and provided recommendations. In addition, numerous Government 
Accountability Office reviews have encouraged the Departments to pursue 
cost-effective resource sharing. Many of the recommendations of those 
studies and reports have been adopted in whole or in part. I would like 
to take a moment to highlight some of these successes.
    For example, past recommendations have suggested changes and 
improvements in our Education, VocRehab and Outreach efforts. In its 
1999 report, the Congressional Commission on Servicemembers and 
Veterans Transition Assistance, noted the evolution of the delivery of 
higher education--along with the increasing price tag--since the 
inception of the Montgomery GI Bill. In partnership with Congress and 
the Administration, the VA worked to implement the recommendations 
needed for a modern and enhanced benefits package for those completing 
honorable service. For example, VA worked with Congress to broaden the 
range of Montgomery GI Bill options to include entrepreneurial courses, 
licensing courses, and high technology certification courses. Benefits 
for tuition have been increased, including those for high-cost 
technology courses. An automated enrollment system has been fully 
operational since July 2001. That commission also pointed out the need 
for VA to improve the Vocational Rehabilitation and Employment (VR&E) 
Service and there now is a long-range strategy to emphasize employment 
outcomes. As for outreach, VA is expanding its outreach to National 
Guard and Reserve troops with a Post Deployment Health Reassessment and 
Readjustment Counseling at our Vet Centers with the hiring of an 
additional 100 OIF/OEF combat veterans as peer counselors.
    Past commissions have made healthcare recommendations as well, a 
number of which we have implemented. One notable example is the 1991 
Commission on the Future Structure of Veterans Healthcare's 
recommendation that VA continue to lead in specialized areas which will 
lead to VA's advancements in TBI and polytrauma care.
    And of course, we have initiated and responded to calls for action 
to enhance healthcare resource sharing. As you may be aware, VA and DoD 
created mechanisms to enhance healthcare resource sharing by forming 
the Joint Executive Council (JEC) in February 2002. The JEC mission 
seeks to enhance collaboration; ensure the efficient use of federal 
services and resources; remove barriers and address challenges that 
impede collaborative efforts; improve business practices; enhance 
sharing arrangements that ensure high-quality, cost-effective services 
for both VA and DoD beneficiaries; and develop a joint strategic 
planning process to guide the direction of joint sharing activities.
    On behalf of the Task Force agencies, I can pledge to you that we 
are all committed to this effort.
    Mr. Chairman, this concludes my remarks. I would be happy to answer 
any questions you may have.

                                 <F-dash>
                Statement of the Honorable Jeff Miller,
         a Representative in Congress from the State of Florida
    Thank you, Mr. Chairman.
    I appreciate your holding this hearing to review the 25 
recommendations made by the President's Task Force on Returning Global 
War on Terror Heroes.
    We, as a grateful nation, depend on the members of our Armed Forces 
to defend our freedom. Similarly, these brave men and women and their 
families rely too on their government to deliver the benefits and 
services they have earned in an effective and forthright manner.
    I want to commend the President for his leadership in establishing 
this Task Force. I also want to thank Secretary Nicholson and the 
members of the Task Force for their swift and decisive action in 
undertaking this critical review of how we are providing services to 
our returning Global War on Terror (GWOT) servicemembers.
    As a Member of both the Committee on Armed Services and the 
Committee on Veterans' Affairs, we have been examining a number of the 
issues put forth by the recommendations of the Task Force for several 
years. As Ranking Member of this Committee's Subcommittee on Health, I 
am particularly interested in the 11 recommendations geared toward the 
provision of health services to those who serve and have served in the 
GWOT.
    In March, the Health Subcommittee held a hearing to review how the 
needs of the veterans suffering TBI are being met. Our review found 
that there are significant barriers between the care provided between 
the Department of Veterans Affairs (VA) and the Department of Defense 
(DoD). In response, I joined as an original cosponsor of H.R. 1944, the 
Veterans Traumatic Brain Injury Treatment Act of 2007. The bill, among 
other provisions, would require the screening of all veterans for TBI, 
establish a comprehensive program of long-term care for post-acute TBI 
in four geographic regions, and create TBI transition offices. It is 
encouraging to note that several of the Task Force recommendations 
support the requirements in this legislation.
    The Task Force also recommended that VA and DoD, in coordination 
with HHS expand collaboration and work with Community Health Centers to 
improve health services provided to Operation Iraqi Freedom (OIF) and 
Operation Enduring Freedom (OEF) servicemembers who live in rural 
areas, with about 41 percent of our returning OEF/OIF veterans hailing 
from rural settings.
    The target date provided by the Task Force for establishing a 
working group between VA, DoD, and the Department of Health and Human 
Services (HHS) was April 30, 2007. This recommendation included that 
VA, DoD, and HHS would formalize an agreement to determine the needs of 
OIF/OEF returnees to interact with the CHCs and other HHS supported 
providers. While I understand that this initiative was tasked to HHS, I 
hope VA and DoD are tracking these recommendations and encouraging 
timely action.
    VA and DoD are to develop a standard system of co-management and 
case management. VA and DoD were to have a draft Memorandum of 
Agreement and complete a charter to standardize processes between the 
two agencies in regards to case management by April 30, 2007.
    Additionally, the Task Force recommended that DoD improve VA access 
to health records of servicemembers treated in VA facilities. VA and 
DoD have had the authority to share since 1982, with the enactment of 
Public Law 97-174, the VA/DoD Health Resources Sharing and Emergency 
Operations Act. In 2003, Public Law 108-136 created the Joint Executive 
Committee, an interagency Committee to enhance the sharing between the 
two Departments. While some progress has been made, I am still 
disturbed by the sufficient lack of progress that remains.
    Both DoD and VA should take notice that we will no longer accept 
business as usual. Missed deadlines are simply unacceptable. We expect 
both Departments to own up to the problems and take immediate action to 
implement the recommendations of the Task Force. I intend, as I am sure 
everyone will agree, to continue monitoring both the actions of VA and 
DoD to ensure that no servicemember ``slips through a crack.''

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
